<html>
<title> - RECREATION THERAPY AND HEALING OUR WOUNDED WARRIORS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                         RECREATION THERAPY AND
                      HEALING OUR WOUNDED WARRIORS

=======================================================================

                             FIELD HEARING

                               before the

                         SUBCOMMITTEE ON HEALTH

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 8, 2010

               FIELD HEARING HELD IN NEW PORT RICHEY, FL

                               __________

                           Serial No. 111-82

                               __________

       Printed for the use of the Committee on Veterans' Affairs




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






                                  ______

                      U.S. GOVERNMENT PRINTING OFFICE
  57-026                   WASHINGTON : 2010
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="aacddac5eac9dfd9dec2cfc6da84c9c5c784">[email&#160;protected]</a>  








                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

                                 ______

                         Subcommittee on Health

                  MICHAEL H. MICHAUD, Maine, Chairman

CORRINE BROWN, Florida               HENRY E. BROWN, Jr., South 
VIC SNYDER, Arkansas                 Carolina, Ranking
HARRY TEAGUE, New Mexico             CLIFF STEARNS, Florida
CIRO D. RODRIGUEZ, Texas             JERRY MORAN, Kansas
JOE DONNELLY, Indiana                JOHN BOOZMAN, Arkansas
JERRY McNERNEY, California           GUS M. BILIRAKIS, Florida
GLENN C. NYE, Virginia               VERN BUCHANAN, Florida
DEBORAH L. HALVORSON, Illinois
THOMAS S.P. PERRIELLO, Virginia

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.








                            C O N T E N T S

                               __________

                              June 8, 2010

                                                                   Page
Recreation Therapy and Healing our Wounded Warriors..............     1

                           OPENING STATEMENTS

Hon. Corrine Brown...............................................     1
    Prepared statement of Congresswoman Brown....................    42
Hon. Gus M. Bilirakis............................................     2
    Prepared statement of Congressman Bilirakis..................    42
Hon. Jeff Miller.................................................     4
    Prepared statement of Congressman Miller.....................    43

                               WITNESSES

U.S. Department of Veterans Affairs:
    Cathy Chiovitti Williams, CTRS, Supervisor, Recreation 
      Therapy Section, James A. Haley Veterans' Hospital, Tampa, 
      FL, Veterans Health Administration.........................    32
        Prepared statement of Ms. Williams.......................    56
    Steven G. Scott, D.O., Chief, Physical Medicine and 
      Rehabilitation Service, James A. Haley Veterans' Hospital, 
      Tampa, FL, Veterans Health Administration..................    34
        Prepared statement of Dr. Scott..........................    57

                                 ______

Hillsborough County, FL, Parks, Recreation and Conservation 
  Department, and Paralympic Sport Tampa Bay, Tampa Bay, FL, 
  Melinda Wheatley, Senior Recreation Therapist..................    20
    Prepared statement of Ms. Wheatley...........................    48
Keckler, Mary Ann, Spring Hill, FL...............................     5
    Prepared statement of Ms. Keckler............................    43
Nelson, Lee, Land O'Lakes, FL....................................     8
    Prepared statement of Mr. Nelson.............................    45
Paralyzed Veterans of America, Florida Gulf Coast Chapter, Tampa, 
  FL, Davis Celestine, Vice President............................     7
    Prepared statement of Mr. Celestine..........................    45
Professional Golfers' Association of America, Adaptive Golf 
  Academy, Inc., David B. Windsor, Principal Instructor..........    24
    Prepared statement of Mr. Windsor............................    52
Quantum Leap Farm, Inc., Odessa, FL, Edie E. Dopking, Ph.D., 
  President and Founder..........................................    17
    Prepared statement of Dr. Dopking............................    46
Sailability Greater Tampa Bay, Inc., Clearwater, FL, Sandy 
  Ackley, Programming and Events Coordinator.....................    22
    Prepared statement of Ms. Ackley.............................    51

                       SUBMISSION FOR THE RECORD

Verax Technologies, Inc., Pensacola, FL, statement...............    58

 
                         RECREATION THERAPY AND
                      HEALING OUR WOUNDED WARRIORS

                              ----------                              


                         TUESDAY, JUNE 8, 2010

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                                    Subcommittee on Health,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 8:30 a.m., in 
the New Port Richey City Hall, 5919 Main Street, New Port 
Richey, Florida, Hon. Corrine Brown presiding.

    Present: Representatives Brown of Florida and Bilirakis.

    Also Present: Representative Miller of Florida.

            OPENING STATEMENT OF HON. CORRINE BROWN

    Ms. Brown of Florida. Good morning. The House of 
Representatives Committee on Veterans' Affairs scheduled this 
hearing and will now officially come to order.
    I'm going to change the outline slightly. Before we bring 
up our first panel, I would like my ex-colleague, Mr. 
Bilirakis, who represented this area for many years, to come 
and bring us greetings.
    Come up, Mr. Bilirakis. Yes, the Chair says come up.
    Mr. Michael Bilirakis. Madam Chairwoman, you used to order 
me around up there.
    Ms. Brown of Florida. Come on up.
    Mr. Michael Bilirakis. I'm here with my fellow veterans. 
I'd rather be here with my fellow veterans. I appreciate that 
very much.
    It was wonderful working with you. You were on the 
Veterans' Committee all through the years from the time you 
came up there until the time I retired, which shows an awful 
lot of dedication on your part.
    And I very much appreciate, on behalf of us, all that 
you've done, the Veterans' Committee, down here, and you're 
taking care of my little boy up there.
    Ms. Brown of Florida. Thank you.
    Will the first panel come up, please? I would like to thank 
everyone for attending this hearing.
    I would also like to express my sincere gratitude to the 
city of New Port Richey and Congressman Bilirakis for hosting 
us today.
    Thank you.
    Mr. Gus M. Bilirakis. My pleasure.
    Ms. Brown of Florida. And I certainly want to thank Mr. 
Miller for joining us also.
    Modern medical advances have increased the survival rate of 
our soldiers who sustain injuries while serving this country, 
but those soldiers are also left with serious and complex 
wounds, which require continuous care once they return home.
    One of the key challenges facing the U.S. Department of 
Veterans Affairs (VA) today is the ability to meet the 
rehabilitation needs of our veterans by providing a broad and 
varied menu of therapy and treatment.
    There is a clear need for high quality rehabilitative care 
for all of our veterans, both the old generation and those now 
returning from Operation Enduring Freedom (OEF) and Operation 
Iraqi Freedom (OIF).
    Today's hearing offers us the opportunity to examine a 
particularly exciting rehabilitation method. Recreational 
therapy is an ideal component of the rehabilitation regime 
because it allows veterans to be active by engaging in their 
favorite sports and recreational activities, while 
simultaneously sustaining the healing of the mental and 
physical wounds of war.
    Recreational therapists can use a variety of techniques, 
including sports, games, art, dance, crafts, animals, drama, 
music, and community outings to help reduce depression, stress 
and anxiety; enhance basic motor functioning; and build 
confidence among the program participants.
    In other words, servicemembers and veterans have 
opportunities to engage in their communities and participate in 
sports and other activities that they may have enjoyed prior to 
sustaining their war injuries.
    Today, I look forward to hearing from the veterans on our 
first panel about their personal testimony on how recreational 
therapy has benefited them.
    I am also eager to learn from our second and third panels 
about the different types of recreational therapies that are 
available to our veterans, and how VA and private organizations 
are working together to offer this valuable treatment option to 
wounded warriors in the Tampa region and across the country.
    I now want to recognize Mr. Bilirakis for any opening 
remarks that he may have.
    Thank you again, Mr. Bilirakis.
    [The prepared statement of Congresswoman Brown appears on 
p. 42.]

           OPENING STATEMENT OF HON. GUS M. BILIRAKIS

    Mr. Gus M. Bilirakis. Thank you, Madam Chairwoman. I really 
appreciate it very much.
    I'm so pleased to be here today in the heart of the 9th 
Congressional District and want to thank my fellow Floridian 
colleagues, Corrine Brown and Jeff Miller, for taking the time 
out of their busy schedules to be here today.
    As a matter of fact, ladies and gentlemen, we have votes 
this afternoon. If it were not for these two, we would not be 
having this hearing this morning. So they really made a special 
effort.
    As you know, Corrine is from the Jacksonville area, and 
Jeff is from the Panama City/Pensacola area, and they really 
went out of their way to be here; that's how much they care 
about this issue. So we really appreciate them very much.
    It's a pleasure to serve this great State with two 
individuals so committed to championing the best interest of 
our servicemembers, veterans, and all the residents of Florida. 
I'm grateful to both of you again.
    I also want to recognize the representative from Ginny 
Brown-Waite's office, Shirley Anderson.
    Is she here? I know she's on her way.
    Oh, hey, Shirley.
    Ms. Anderson. Hi.
    Mr. Gus M. Bilirakis. Thanks for being here.
    Most importantly, I'm happy this morning to see my 
constituents from the 9th Congressional District.
    Whether here as a witness or an interested participant, 
seeing so many that have gathered so early and are willing to 
spend their Tuesday morning exploring the role of recreation 
therapy in healing our wounded warriors is a testament to the 
depth of patriotism and caring in this community. I thank you. 
It's an honor to represent you in Congress.
    Throughout my career, honoring the service and sacrifices 
of our veterans has been among my highest priorities--as a 
matter of fact, it's been my top priority. Ensuring the men and 
women who fought so bravely for our freedoms are given access 
to the highest quality care and services is a commitment I take 
seriously. That's why I specifically requested a seat on the 
Veterans' Committee when I was elected to serve in Congress in 
2006.
    Since then, I've introduced numerous bills, many of which 
were incorporated into law, aiming at improving veterans' care 
and benefits. I was pleased to lead the effort to bring a VA 
outpatient health clinic to Hillsborough County, and to work 
with local and national VA officials to expand the Pasco County 
Outpatient Clinic and bring additional services such as dental 
care to the 9th Congressional District.
    I'm very appreciative of the fact that we have a world-
class medical and polytrauma center, as well as the Michael 
Bilirakis Spinal Cord Unit--I'm very proud of that--nearby at 
the James A. Haley VA Medical Center.
    The dedicated medical staff at Haley is second to none, in 
my opinion. However, it's always important that we strive to 
enhance the care and services provided to our brave veteran 
patients. We have to keep working and keep fighting.
    And, today, I anticipate learning from those of you 
gathered here about the important topic of recreation therapy.
    Recreation therapy is a therapeutic endeavor that improves 
an injured veteran's physical, mental, emotional and spiritual 
health through activities aimed at increasing independence and 
quality of life. It doesn't surprise me that Florida is a 
national leader in recreation therapy.
    I look forward to taking the ideas we discuss today back to 
Washington to improve the lives of veterans, not only in our 
State, but in every VA facility throughout the Nation.
    In closing, I would like us to take a moment to recognize 
and honor those veterans in the room. As always, I'm humbled by 
your bravery.
    Please raise your hand or stand up, if you'd like, all of 
our heroes. Thank you very much.
    As always, I'm humbled by your bravery and your dedication 
to a cause bigger than yourselves. Because of your efforts, we 
are able to gather this morning freely, safely, and 
democratically.
    On behalf of our grateful Nation, I thank you for your 
service.
    I yield back my time. Thank you, Madam Chair.
    [The prepared statement of Congressman Bilirakis appears on 

p. 42.]
    Ms. Brown of Florida. I'm going to yield to Mr. Miller for 
his opening statement. And also I want to thank him in 
particular for coming because he's from Pensacola, Florida, and 
I know he's struggling with challenges there with oil problems.

             OPENING STATEMENT OF HON. JEFF MILLER

    Mr. Miller. Thank you very much, Madam Chairwoman. It is 
indeed a pleasure for me to be here with each and every one of 
you today.
    I do have a written statement that I would like to enter 
into the record, but it is a pleasure to join both the 
Chairwoman, Ms. Brown, and Gus Bilirakis here in New Port 
Richey.
    I have the great honor of representing the 1st 
Congressional District. We like to say that it is the western 
gate to the Sunshine State where thousands live like millions 
wish they could.
    Interestingly enough, I was born in Pinellas County and I'm 
a McMullen by birth, so our roots go pretty deep around here. 
And I can remember very clearly driving up and down U.S. 19 
when it was just two lanes. So that tells you how far back it 
was.
    And it's great to see both Mike and Evelyn here. Mike 
thinks I used to listen to him. It was actually Evelyn that 
would tell me what to do.
    But I just--one thing that somebody had put in my opening 
statement--and I think it's very important--an old sergeant 
once said that morale is what makes your body do what your mind 
knows ain't possible. And that is very, very true.
    And all of us on the VA Committee do what we can to make 
sure that the Administration has the tools that it needs to be 
able to provide the services for our veterans.
    Again, northwest Florida is home to many veterans and, of 
course, quite a few military installations, as well.
    So I ask that my full statement be entered into the record. 
And I look forward to hearing from the panelists that are here. 
Thank you for coming today.
    [The prepared statement of Congressman Miller appears on p. 
43.]
    Ms. Brown of Florida. Thank you.
    And Mr. Bilirakis will introduce the first panel.
    Mr. Gus M. Bilirakis. Thank you, Madam Chair.
    And, Mr. Miller, there is a little road connecting Pasco 
and Pinellas named after you, McMullen-Booth Road.
    All right. It's my pleasure and honor to introduce the 
first panel.
    Mary Ann Keckler, a veteran from Spring Hill, Florida. 
Welcome.
    Davis Celestine, Vice President of the Florida Gulf Coast 
Chapter of the Paralyzed Veterans of America (PVA). Welcome, 
sir. Thanks for being here.
    And then Lee Nelson, a veteran from Land O'Lakes. Thank you 
so much for being here.
    I'm so excited about this hearing. We're going to learn so 
much. And I'm really happy that there are members of the media 
here, as well, because we really need to get the word out.
    Thank you.
    Ms. Brown of Florida. Thank you.
    We're going to start with Mary Ann Keckler, who I've seen 
in many of our hearings around the State.

    STATEMENTS OF MARY ANN KECKLER, SPRING HILL, FL; DAVIS 
   CELESTINE, VICE PRESIDENT, PARALYZED VETERANS OF AMERICA, 
  FLORIDA GULF COAST CHAPTER, TAMPA, FL; AND LEE NELSON, LAND 
                          O'LAKES, FL

                 STATEMENT OF MARY ANN KECKLER

    Ms. Keckler. Thank you very much, Congresswoman Brown.
    And good morning, Congressman Miller, Congressman 
Bilirakis, and Congresswoman Brown. Thank you very much for 
allowing me to testify today. It is my pleasure to be able to 
help in any way I can where our veterans are concerned.
    My testimony this morning will be to let you know that I'm 
a veteran enrolled in the James A. Haley VA Medical Center 
since 1992. I have been both an inpatient and an outpatient. I 
am also the VAVS representative for the Disabled American 
Veterans (DAV) at this facility, as well as I have a son that 
is enrolled in this facility in the spinal cord unit, 100 
percent service-connected, total permanent.
    As an inpatient for 3 weeks in September of 1996, in the 
pain management program, I have had the opportunity afforded to 
me to deal with the many aspects of therapy to help with my 
pain problem. The one that stood out the most, and the one that 
worked on the mental release of my pain was recreation therapy.
    All therapies, i.e., physical, mental, all just enhanced 
the pain as your mind on these two is constantly on the issues 
of the body. Not that they were not helpful--they were--but 
recreational therapy kept my mind off the problems it was 
dealing with.
    When I went into the pain program, I was in a great deal of 
depression. Getting up every day was a major chore for me. I 
was encountering muscle spasms, and living off Flexeril to 
counteract them. This put me into an extreme lethargic state.
    While in the pain program, I was interacting with others 
with similar problems. Recreation therapy kept my mind off my 
problems. I was able to show my creative side and also had 
socialization with others. We not only worked with our hands, 
but we went out on outings as a group. I then forgot I was 
suffering from chronic pain; mind over matter.
    Suicide is a definite relation to depression. Pills that 
mask the pain--Flexeril, Valium, Morphine, Halcion, Demerol--
can cause major depression leading to suicide, which from these 
I am a survivor, until I could feel myself going down that path 
again. I then took measures to correct this effort. I am pill-
free since 1996, and deal with my pain in other ways.
    While in the hospital, I had the opportunity to clearly 
take hold of my problems. Recreational therapy played a major 
role in this. Not only did I have an hour a day with the 
therapist, I also took projects back to my room to work on 
later on. If I had a problem at any time working on a project, 
a therapist was always available.
    The present Chief of Recreation Therapy, Cathy Williams, 
was one of my therapists. She always was willing to work with 
me on projects. This eliminated any thoughts of my physical 
aspects of pain. Again, mind over matter. It beats all pain 
medication, helps with my thoughts of depression or suicide. 
This is the best medicine yet.
    Not only have I been successful with it, as a volunteer, I 
have seen this work on many occasions. By the way, this is why 
I became a volunteer, to make a difference and help other 
veterans.
    Here is the story of another veteran. This young man has 
been in the hospital in the spinal cord injury center for 
several years. He is now in the long-term care facility in 
spinal cord. When I first met him he would not speak hardly to 
anyone. As an amputee, he also was on pain meds. Depression had 
set in on him and he was feeling sorry for himself. He was 
pretty well bedridden.
    The DAV had sponsored a pitcher from the Detroit Tigers 
through recreation therapy. This veteran loved baseball. This 
was the highlight of his stay.
    I would then visit him on a regular basis and also spoke to 
recreation therapy about programs to the bedside. This was 
done. A smile appeared. He is now in a wheelchair and is all 
over the hospital, and he looks forward to the outings that 
recreation therapy sponsors. He is the first outside waiting to 
be loaded into the van.
    I am working with another spinal cord veteran that is 
indeed--indeed tried to commit--tried to commit suicide. He and 
I have had some discussions on this matter. He also is now in 
recreation therapy daily and has a smile on his face, as he 
also goes on the outings. And that makes his day. Happiness 
goes a long way.
    The present Chief of Recreation Therapy has worked very 
hard on programs that make a difference for our veterans, both 
in and out.
    Winter sports clinic, wheelchair games, golden age games, 
disability golf, horseback riding, sports venues--there is no 
time to feel sorry for yourself.
    This has all been put together in the last few years. Three 
years ago I went to the past chief to put together the winter 
sports clinic program, which is sponsored by the DAV. The 
answer was: This is Florida. People do not ski or participate 
in cold weather activities. My answer was that we were all 
mostly transients from other areas of the country and have at 
some time or another experienced winter sports.
    Under the new chief this is a reality and many are 
participating.
    My son, a spinal cord patient, when he was in the hospital, 
his forte was computers. Recreation therapy helped set up a 
computer for them to use or hooked up the one they brought in. 
Again, the outside world is available to them.
    Bedside programs are available, football pools, and they 
all look forward to the pizza parties sponsored by 
organizations and run by recreation therapy, dinners sponsored 
by organizations through recreation therapy. Someone from the 
department needs to be on board when these are taking place. 
And, believe me, we have many. Ice cream socials. The list goes 
on and on. Without the recreation therapy department, this 
would not be possible.
    I, as a volunteer, have the opportunity to work with 
recreation therapy in many aspects and areas of the hospital. 
They do make a major difference.
    My life has taken a turn because of their efforts. As a 
volunteer, I also have the opportunity to go out on the outings 
and help them. When on the outings, they also have to act as a 
therapist and nurse's assistant. Their training goes beyond 
just fun and games.
    If I was not--if it was not for recreation therapy and the 
staff that we have now, we veterans would not be able to 
participate in as many functions as made possible for the 
amount of veterans and active duty, both inpatients and 
outpatients, that we presently serve.
    In summary, with regard to the above, recreation therapy is 
a must along with health care, to address the medical needs of 
our patients on both a mental and physical aspect. They are 
trained professionals in this respect and deserve to be noted 
as such.
    Respectfully submitted, Mary Ann Keckler.
    [The prepared statement of Ms. Keckler appears on p. 43.]
    Ms. Brown of Florida. Thank you. Thank you for your 
testimony.
    We are--the testimony should be 5 minutes and--to give us 
time to ask questions at the end.
    Mr. Celestine.
    Mr. Celestine. Mine is going to be short.
    Ms. Brown of Florida. No, no. Take your time. It's your 
time.

                  STATEMENT OF DAVIS CELESTINE

    Mr. Celestine. Good morning. My name is Davis Celestine. I 
was injured in 2001 in a training accident going over to 
Afghanistan for our yearly detachment. After my accident, I 
woke up in a hospital bed with several doctors around me. At 
first I thought it was a dream until I came to reality and it 
was not a dream. One of the doctors turned and said to me that 
you might never walk again, but miracles happen every day.
    So with that said to me, I decided to do whatever it takes 
to stay active in my daily life. However, I was shipped off to 
the James A. Haley Hospital Rehab and that's when I was 
introduced to Cathy Williams and Jennifer Day.
    From there on they got me started with simple stuff such as 
the game ``Trouble'' and playing cards. They paired me up with 
a paraplegic named Max and he told me, ``If your fingers are 
not working as well, use your mouth to make a pair of moccasins 
for your wife.'' So with that type of motivation in their 
clinic, it was an inspiration to be there.
    Now their programs have grown so well they have pushed me 
into the world of--the Paralympic world to compete in 
handcycling and swimming.
    Also, I have a good family support that really helps. My 
wife, Deborah, and my twins keep me going to be the best that I 
can be.
    In my spare time, I volunteer at my local chapter where I 
am the Vice President and fundraising chairman. I give back to 
the local hospital by trying to get the newly injured involved 
in the great sports program. And that concludes my testimony.
    [The prepared statement of Mr. Celestine appears on p. 45.]
    Ms. Brown of Florida. Thank you. And thank you so very much 
for your service.
    Mr. Celestine. You're welcome.
    Ms. Brown of Florida. And we're going to have questions 
when the last witness finishes. Mr. Nelson.

                    STATEMENT OF LEE NELSON

    Mr. Nelson. Good morning, Madam Chairwoman, Mr. Bilirakis, 
Mr. Miller, and council members. Thank you for having us here 
today. And it's an honor to be here addressing each one of you.
    My name is Lee Nelson and I am a Chaplain in the United 
States Army on active duty.
    Last summer when I was driving to work stationed in Italy, 
I got tangled up with a semi-tractor trailer and received a 
spinal cord injury from that. There was some other injuries 
that they worked on as well--collapsed lung, different things 
like that--but I received a surgery and treatment there in 
Italy from the civilian hospital and was transferred to Walter 
Reed in Washington, DC, and then here to the Tampa VA Center, 
James A. Haley, because of the spinal cord injury work that the 
VA hospital in Tampa has done.
    When I realized where I was here in the VA, they had a 
number of therapies that was set up for me: physical therapy, 
occupational therapy, speech therapy, and, of course, 
recreational therapy.
    And when the recreation therapist talked with me about 
doing different things and we went and did some track and field 
events and some of the other things like swimming or things 
like that, but she talked with me about horseback riding. And I 
had been horseback riding before and been on trail rides and 
doing different things while on vacation or whatever. And I was 
familiar with the concept of riding a horse.
    But because I was not an equestrian and didn't really know 
a lot about it--I had some experience of sitting on a horse--I 
knew that in order to stay on the horse I would wrap my legs 
around the horse and hang on with my legs and I wouldn't fall 
off. And if something were to happen, you had the saddle horn 
there to hang on to; but, otherwise, my stability was my legs. 
Well, because I'm a paraplegic now, that ability to hang onto 
the horse with my legs is gone.
    And so I told her, the recreation therapist, that that's 
just a silly idea, get on a horse and fall off. And she said, 
``Well, there'd always be someone there to help stabilize you 
and everything.'' I said, ``Well, you know, I'll just be 
falling around in people's arms all day.''
    But after talking with her and some of the patients that 
had been involved in the horseback riding, realizing that it 
was an ongoing program and other people did it who were 
paraplegics, so there must be another way to sit on a horse 
besides wrapping your legs around it, I got involved on 
Tuesdays. I go to the Quantum Leap stables, which actually is 
in this part of the State, not too far from here, and ride the 
horses.
    And as I think about recreation therapy, recreation in a 
sense--of course, you can break down the word and think about 
recreation and how it works--but I always thought about it just 
as off-time and time to relax, time to goof-off, and didn't 
really think about it as being productive.
    Now, I've ridden horses before. In order to help my 
physical abilities, I did physical training in the military to 
do that, and riding the horse was for fun.
    But as I have ridden the horses here at the Quantum Leap 
stables I've learned that there are certain core muscles that I 
had that were weaker than what I was thinking. And that was 
just simply because I had to balance myself on the horse--and 
even though there were a couple of people walking along on 
either side of me, somebody else guiding the horse--I thought 
it would be best if I tried to stay on the horse instead of 
just falling into their loving arms waiting for me there, but--
so as I managed to do that.
    And for the past several weeks, going each Tuesday, 
horseback riding has increased my core stability significantly. 
And I didn't realize how that had gotten weaker over this past 
year. It was last August I received my injury.
    The core stability muscles had increased in such a way 
where it's easier for me to sit up in a chair long-term and--or 
throughout the day--instead of just a few hours and then lay 
back down exhausted and not being able to do anything else. I'm 
able to do more.
    And so the horseback riding events has significantly 
strengthened up my core muscles enabling me to do other things 
and to be able to go and work with people.
    And as I said before, being able to just simply maintain 
the day of being able to do things instead of having to stop 
and rest and lay down and everything in the middle of the day.
    In fact, there was a moment one time, a few weeks ago, and, 
apparently, there were some flies bothering the horse, and the 
horse is trying to get rid of the flies. But their ability to 
reach up with their hooves and flick a fly off is--they don't 
have the dexterity that we do, so they just kick.
    And as I was trying to get the horse to go around a barrel 
to the left, he decided to kick and throw me in that direction 
a little bit more than what I was planning on going. But 
because of the strength of my core stability muscles, I didn't 
fall off the horse. I just fell over to the side. And, of 
course, the young lady that was walking alongside me was able 
to straighten me back up.
    But if I did not have that strength that I had received 
from several weeks of horseback riding, I probably would have 
just simply fallen on the ground very quickly and not been able 
to stay up on the horse.
    But the important thing is not that I'm striving to be an 
equestrian or my ability to ride horses better, it is how it 
affects me in other areas of life: Being able to sit up in the 
wheelchair long-term, being able to go different places to sit 
and talk with people as a Chaplain.
    I'm a counselor. And doing that counseling and talking with 
people is--in my mind it seems like, well, that's a very simple 
thing, you just go and talk to people. But because of my injury 
it's not so simple anymore or hadn't been.
    But now, with the recreation therapy, I'm able to maintain 
my daily routine in being able to sit down and talk with people 
and have an extended conversation with them and help them 
through counseling, and as was mentioned before, sometimes 
suicidal thoughts and different things.
    Just what I was doing when I was stationed in the military 
base talking with our soldiers, oftentimes marriage counseling 
is the topic. But suicidal thoughts, unfortunately, are common 
enough with our young soldiers.
    And dealing with those issues and talking with them has 
been a requirement that I have the ability to stay alert and 
talk with them and not be exhausted in the middle of the 
conversation and distracting them and me from being able to 
give them a well thought out conversation and counseling. And 
the recreation therapy has enabled me to do that.
    Thank you.
    [The prepared statement of Mr. Nelson appears on p. 45.]
    Ms. Brown of Florida. Thank you very much. Thank you for 
your testimony. And for sharing that with us.
    I've learned a lot just from listening to you, and I just 
want you to know, I also have experience riding horses. And 
it's wonderful.
    The horses that I've been on in the past, they tried to 
throw me, so I'm glad you've been able to stay on.
    But this is very educational, so thank you. And thank you 
all three of you, for your service.
    I have a couple questions that I want to ask you. You all 
evidently went to the same service center, the James A. Haley 
Center. And, obviously, they're doing a very good job with 
their recreational therapy program.
    How do you think we can improve the program to ensure that 
veterans nationwide enjoy the benefits of recreational therapy?
    And we can start with you, Ms. Keckler.
    Ms. Keckler. Well, yes, it is something that's needed. We 
are number 1 in recreation therapy. We have a leader that has 
really taken the bull by the horns and moved with it. And it's 
something that probably should be experienced around the Nation 
in our VA hospitals, because it does make a major difference.
    And what can we do to make it better? That is appropriated 
funding to be able to get out. Not every hospital can get the 
donations that we have been successful in getting.
    And, of course, you know, with the economical situation in 
this country today, the donations are not as great as they were 
in the past.
    Appropriated funding is the most important thing we can do 
for recreation therapy to be able to help our veterans get on 
their feet.
    Ms. Brown of Florida. Mr. Celestine, what kind of 
activities do you participate in?
    Mr. Celestine. I participate in handcycling, swimming. I do 
archery. I do field events, that is put on also by recreation 
therapy, which includes javelin, shot put, and a couple others.
    But the program is so well put together. But it's just more 
or less having like participation from the individuals to come 
out and see exactly what people, like myself and others, can do 
so they could get enjoyment and get more involved.
    That's when you can become an athlete by going on to the 
Paralympics and getting picked up by those guys and doing more 
extensive training and--well, it's pushing you forward, pushing 
yourself every day so you can know that there is a life out 
there after you get injured and just don't feel sorry for 
yourself.
    Ms. Brown of Florida. I watched a group yesterday play 
water basketball. Do you do that also? Not yet?
    Mr. Celestine. No, not yet.
    Ms. Brown of Florida. I mean, they were just doing it. And 
I was like okay. All right.
    Mr. Nelson, do you want to add anything to that?
    Mr. Nelson. Well, I think that, as you mentioned, it would 
be an excellent opportunity for our hospital patients across 
the country to be able to have facilities like this, because 
it's a dual role in that there's the physical aspect of just 
working on your balance and core stability to be able to sit on 
a horse. But as the side walkers would and the leader there 
would take the horse out into the fields and around through the 
woods, it's, of course, a different training when the horse is 
moving a little bit differently than just simply walking around 
in the stable area. And, of course, that requires a little bit 
more balance and a little bit more focus to stay on the horse.
    But more than just the physical aspect of it, it's just 
simply being out in the outdoors and the connection with the 
animal.
    The horses are different than horses that I had ridden 
before, which, in some cases, I had a hard time hanging on with 
my legs and my arms and everything else in some cases because 
the horse is--not to the extreme of trying to buck me off, but 
at the same time were not careful.
    But these horses are very much trained and used to having 
people with some type of a handicap ability. And there seems to 
be a connection that's there.
    And being able to connect with that large animal, even 
small horses are much larger than we are, and being able to 
bond with that animal and have some kind of a therapy, there is 
simply a connection between humans and animals that is 
beneficial, as well.
    And, of course, being able to get outdoors and not just 
working out with weights in the gym and different things like 
that, which is excellent, as well. But there's a place for 
that. And then getting outside and feeling like you're alive--
    Ms. Brown of Florida. Yes, sir.
    Mr. Nelson [continuing]. Is very useful.
    And the mental aspect of having some type of handicap 
ability is extreme and it can be overwhelming.
    And being able to do things like this brings the soldiers 
back to the thought that they're still alive, they're still 
here on planet Earth, and they can be--well, having a sense of 
normalcy to them.
    And realizing that whatever the case may be, whatever their 
handicap is, they still have that particular loss, but they've 
not lost their ability to be alive and experience things in the 
world.
    So this is an excellent program that I would recommend for 
all the VA hospitals across the Nation.
    Ms. Brown of Florida. Thank you.
    Mr. Bilirakis.
    Mr. Gus M. Bilirakis. Thank you, Madam Chair.
    Lee, you've actually addressed this issue.
    But, Davis, can you elaborate on how recreation therapy has 
improved your quality of life?
    Mr. Celestine. Recreation therapy has improved my life 
whereas I can get up and go. They gave me--they instituted a 
lot of stuff into me where you never--like, for instance, like 
I started off playing a game ``Trouble.'' I could have never 
picked up the little game piece to move it along, but with--
with the patience and the therapists, they allowed me to grow.
    And then with that said, it's like--it gives you more or 
less an introduction to doing stuff. It's like if you can't 
figure it out, take a minute, understand your situation, and 
then go forward. Because sometimes you have to step back and 
look at the bigger picture before you start trying to apply 
yourself.
    And that's one of the things they really instituted into 
me, that you look at the big picture first before you start 
jumping into the water and knowing that you can't swim and it's 
too late then.
    So with that said, that's the feeling I got from this 
program. And that's why I'm so adamant about trying to get 
other people to understand the logic and the ability of these 
therapists to instill stuff into us that's going to be 
beneficial to us in the lifelong--in the life that we have.
    Mr. Gus M. Bilirakis. Thank you very much.
    Mr. Celestine. You're welcome, sir.
    Mr. Gus M. Bilirakis. Thank you.
    Next question for the entire panel: What other recreation 
therapy would you like to see offered that's not being offered?
    We'll just start with you, Mary, if you'd like.
    Ms. Keckler. Well, you know, that's a good question. And 
I'm trying to think in my mind, because we have a vast amount 
of recreational programs going on in our hospital, probably 
more than any other VA--I know more than any other VA in the 
country--and I can't honestly think of anything right off the 
top of my head because we have so many programs.
    We're constantly--we're not just 24/7. We're 48/7 with 
programs in our hospital.
    We now have instituted a lot of the programs such as the 
wheelchair basketball games--or wheelchair games we're doing 
through the PVA, there's the winter sports clinic in the DAV, 
we're doing the golden age games, which has been done for a 
long time. We're really moving on. We do the swimming.
    Oh, there's so much going on in recreation therapy. I can't 
think of another thing, unless something new comes on the block 
that we don't know about, except putting volleyball courts out 
there, but with the spinal cords--unless we train the spinal 
cords to be equipped to play volleyball.
    Mr. Gus M. Bilirakis. Lee, would you like to add?
    Mr. Nelson. Well, again, I would have to repeat what Ms. 
Keckler was saying is that there's so much there that it is 
difficult to think of something that's not happening right now.
    And I am new to the paraplegic world and so I'm not real 
familiar with what all is out there, what all can we do.
    But I think that the only thing that I can say as far as 
getting something that we don't have, I can't think of 
anything.
    Possibly improving or expanding on some of the things that 
we do, such as the bicycling, the handcycling. I've gotten 
involved with that some. But the areas where you can 
handcycle--and for inpatients you have to be kind of careful 
with them and what they can do and everything--but you might 
expand the program some. But it's there and people are able 
to--and they take patients out to go through the parks and 
handcycle through that area in a safe environment and 
everything. But that would be the only thing I can think of is 
to expand some programs that are there.
    And, of course, obviously, we talk about other hospitals, 
they don't have some of these therapies, so to put them there 
would certainly be an improvement for them and for those 
veterans that are there.
    But the only thing I can think of is to expand some of the 
things that they have going on right now.
    Mr. Gus M. Bilirakis. Very good.
    Davis, do you have anything? What would you like to see 
offered that's not being offered today?
    I know we're very fortunate in this area, but this will be 
very helpful to the other Members of Congress throughout the 
United States.
    Mr. Celestine. I was going to say we need to implement 
football. But they already have that, and that's called quad 
rugby.
    Basically, like I said, there's nothing I could see unless 
we look at certain programs that will be beneficial to certain 
areas. Because depending on the terrain that you're at, it 
might be beneficial to them. Like I think next week they're 
putting on a ski clinic.
    So they have different stuff going on, but at the same time 
you need to know what's right for that area or the type of 
crowd that you're more or less pertaining to.
    So I'm going to have to say I don't know what else we can 
add to the curriculum.
    Mr. Gus M. Bilirakis. Thank you.
    Mr. Celestine. You're welcome.
    Mr. Gus M. Bilirakis. In the interest of time, I'll ask one 
more question, even though I have a few more, because we have 
two more panels.
    I think this is very important. What would you say to those 
who might question whether, in such economic times, 
recreational therapy, even in a therapeutic setting, is a 
necessary component of rehabilitation? What would you say to 
those who question this type of therapy whether it's feasible 
economically?
    Ms. Keckler. My answer to that is it is the ultimate of 
necessity in the VA hospital.
    As I explained in my testimony, it takes the mind off of 
the problems that you're experiencing while you're in there. It 
gives you an outlook on life. It brings your life up. It lifts 
you up. It makes a difference. You're not looking at four 
walls. Recreation therapy doesn't allow you to do that. You 
don't have the thoughts of depression.
    And, yes, we need to go forth and we need to use the VA at 
James A. Haley as an example nationwide to get this moving.
    It is--I can't think of anything more important in our 
hospital than our recreation therapy department.
    And even what I experienced with our veterans, as well as 
myself, and those who are in and out, that's all I hear is 
recreation therapy, recreation therapy, recreation therapy. 
It's a very important factor for them.
    Mr. Gus M. Bilirakis. You would say it's essential, 
correct?
    Ms. Keckler. Essential. Above essential.
    Mr. Gus M. Bilirakis. Okay. Very good.
    Lee.
    Mr. Nelson. I would have to agree with Ms. Keckler that it 
is essential.
    When I first arrived in the hospital and was involved in 
therapies and I was told about recreation therapy I was 
thinking, okay, well, that's our day off, that's the time to 
goof off and not do anything productive.
    But as the weeks and months have gone by, I realized how 
essential it is. I do go to the gym. I work out with weights. I 
do some different things like that there in the hospital with 
therapists that are there.
    And as necessary as that is, there's an obvious 
practicality to that aspect. You work out with weights, you 
increase your strength, and there's that direct correlation; 
whereas, with the--and you might get with like the swimming--in 
recreation therapy see a little bit more of the connection is 
there rather than horseback riding or some of the other--
playing basketball. You're using muscles and balance that you 
would not otherwise use.
    And simply being involved in a game or a sports event 
pushes you just to finish the game, just to keep up with the 
person that's next to you. And it pushes you mentally to be 
able to push yourself and do a little bit more than you would 
normally do. Not more than you could do, because if you can't 
do it, you can't do it, but you don't think you can do it, you 
don't realize you can do it. And so you learn from that aspect 
of--there's certain moves or certain balance or certain 
strength that I do have that I didn't realize I had it; and by 
doing that then it would increase that strength and that 
balance and that coordination and all those things.
    And so simply going to the gym, working out with weights--
as essential as that is--by itself, is incomplete.
    And so the recreation therapy completes the therapeutic 
work for the wounded veterans that are dealing with certain 
handicaps that simply going to the gym, working out with 
weights, or other aspects of calisthenics, different things 
like that we do in the gym by itself, would be far short of 
what they could achieve through recreation and sports and games 
and pushing themselves to a higher level.
    Mr. Gus M. Bilirakis. Davis, on a scale of 1 to 10, a 10 
being the highest, what would you rate recreation therapy?
    Mr. Celestine. I'd say 11.
    Mr. Gus M. Bilirakis. It's good enough for me.
    Mr. Celestine. As I said, the thing about recreation 
therapy is just trying to get you to do some stuff.
    And the other thing I asked was--you know, usually, when 
you come through the door, the words that you can't really say 
in recreation therapy is ``I can't,'' because that's not in 
their vocabulary. So they actually excluded those words. So 
they give you, more or less, a more positive outlook and like 
to move forward.
    And, like I said, with that said, recreation is definitely 
needed within our hospitals and our way of life. That's it.
    Mr. Gus M. Bilirakis. All right. Thank you. Thank you for 
your service to our country.
    Ms. Keckler. One of the things I would like to add to that, 
one of the things that recreation therapy does in our 
hospital--we have a lot of catastrophic injury, i.e., the 
spinal cord, the polytrauma, and we have a lot of caregivers 
because of this.
    Recreation therapy--we have the outpatients that come in 
that are catastrophically injured, the caregivers drop them 
off, and they work with them to be able to get them to get 
their motor skills back together. And it gives the caregiver a 
break while they're there for an hour or two. That's a very 
important aspect of recreation therapy.
    Mr. Gus M. Bilirakis. Good point. Good point. Thank you 
very much for your service. Thank you for your testimony.
    I yield back to Madam Chair.
    Ms. Brown of Florida. Congressman Miller.
    Mr. Miller. I'm probably one of the most tight-fisted 
fiscal conservatives in the House.
    But, Davis, I will tell you, that if anybody asks in 
regards to where we spend our money, you're the perfect shining 
example of where money is being spent appropriately; to think 
that you went from playing a simple board game ``Trouble'' to 
hand bicycling and those types of things. There's no question.
    Quickly--because I want to try to help the Chairwoman get 
back on schedule--how did you guys find out that these services 
existed? A lot of your fellow soldiers and veterans may not be 
aware of it.
    So how do we get the word out to them and encourage them 
that it works?
    Ms. Keckler. To me, like you have to introduce them to 
something they actually like or something they actually had in 
the past, then it kind of re-sparks their interest in getting 
themselves involved.
    And that's what recreation does. It sparks your interest 
in--you know what, actually, I did it this way when I was an 
able body. Well, let me try it their way. And that's when they 
introduce a different way of doing stuff.
    And, I mean, it's just--like I said, it goes back to basic 
stuff, just getting a better understanding of how to take your 
time, look at the big picture, and then apply yourself.
    Mr. Nelson. Well, one of the things that has happened there 
in the hospital is that they sign you up. They don't wait for 
you to ask. They don't ask you if you want to do it. They just 
tell you this is what you're doing to do.
    Mr. Gus M. Bilirakis. I like that.
    Mr. Nelson. Now, I'm a soldier in the Army and I know how 
to follow orders. And so my nurses would come in and say, 
``Okay, Major Nelson, you're going to go and do this.'' And I'd 
just say, ``Yes, ma'am,'' and go do it, including the 
recreation therapy.
    Now, physical therapy, speech therapy, occupational 
therapy, all of those fell in the same category of they wrote 
out my schedule. And my schedule was at this time I'm going to 
recreation therapy, at this time I'm doing physical therapy, 
and that's what I did. I got up in the morning and I did the 
schedule that they set up for me.
    Now, when I got to recreational therapy, they did have a 
wide variety of things where each week when I would go there 
they would have something different.
    And some of the things really wouldn't be of interest to 
certain--to some people. But others, they find it was much more 
interesting than they thought it would be just thinking about 
what would you like to do, this event. And the answer would be, 
well, I don't know if I want to do that.
    But they don't ask would you like to do it. You just do it. 
And you learn, oh, this is--this is something--when we went to 
some track and field events, we were doing shot puts and discus 
and different things, and they were asking, ``Well, how many 
times have you thrown a discus?'' And that's an easy answer. I 
can keep up with that. It was zero.
    And they showed us how to throw the discus and the shot 
put, which I'm thinking is a big, heavy softball. So I guess 
you fling it over just like a softball. But, no, this is too 
heavy to do that. You can injure yourself. Anybody can injure 
themselves, their shoulders, whatever else, taking a shot put 
and throwing it like a softball.
    And so in doing that, I was using different muscles and 
different coordination. And it's not something that I would 
have signed up for if it was just on the wall saying, oh, sign 
up for what you want to do. I mean, I may not have signed up 
for half of what I've done over the last year that they said, 
okay, this week, this is what we're going to do and go. And 
doing that particular outing turned out to be very beneficial.
    I wasn't much of a basketball player previously. When I'm 
standing up, I'm really not all that tall. I played football, 
not basketball. So when they said, well, we're going to play 
basketball today, I'm thinking, well, I wasn't good at that 
before, I'm certainly not going to be good at it now. But we 
went out to play it anyway. And it was fun. I enjoyed it.
    But more importantly, again, it's moving the wheelchair at 
a faster rate of speed than you normally do. And not just 
simply cones on an obstacle course, but you're having to get in 
a certain position to throw the basketball up through the hoop 
and different things like that that can cause people to find 
out what they're interested in.
    Because once I did that for about an hour then--for some 
people that would really spark a deeper interest, then they 
could continue on with it. And for other people it's like, 
well, that was fun, but I'm not going to do that again.
    But, again, depending on the particular recreation, the 
particular game, then some people would be interested in it, it 
would click for them, and be beneficial to their physical 
disability in finding out that it's not so much of a disability 
as they thought it was, and being able to do more than they 
thought they could do.
    So this hospital has the word out. You know, like I said, 
not just a poster on the wall, signing up for it that everybody 
can see, but it is: This is what you're going to do today. And 
no questions. No options. Just as one guy said, ``No highway 
options.'' Just this is what you're going to do today, and you 
go and do it. And it's a good opportunity to find out that you 
can do more than what you thought you could.
    Mr. Gus M. Bilirakis. Thanks.
    Ms. Brown of Florida. Thank you. I'm going to thank all 
three of you. It's been very educational for all of us and we 
learned a lot.
    And you all, your experience is amazing. You have a program 
that's a 10 and what we need to do is pass that on.
    And on behalf of a very grateful Nation, we want to thank 
you so very much for your service, and also for your testimony.
    We're going to stand in informal recess for 5 minutes, 
because I think the media wants to interview you all. And then 
would the second panel get ready to come up? We'll come back at 
9:35.
    Thank you.
    [Recess.]
    Ms. Brown of Florida. Okay. We will officially come back to 
order.
    Now, the second panel consists of Dr. Edie Dopking, Melinda 
Wheatley, Sandy Ackley, and David Windsor.
    We will start with Dr. Edie E. Dopking.

 STATEMENTS OF EDIE E. DOPKING, PH.D., PRESIDENT AND FOUNDER, 
 QUANTUM LEAP FARM, INC., ODESSA, FL; MELINDA WHEATLEY, SENIOR 
     RECREATION THERAPIST, HILLSBOROUGH COUNTY, FL, PARKS, 
 RECREATION AND CONSERVATION DEPARTMENT, AND PARALYMPIC SPORT 
TAMPA BAY, TAMPA BAY, FL; SANDY ACKLEY, PROGRAMMING AND EVENTS 
       COORDINATOR, SAILABILITY GREATER TAMPA BAY, INC., 
  CLEARWATER, FL; AND DAVID B. WINDSOR, PRINCIPAL INSTRUCTOR, 
  PROFESSIONAL GOLFERS' ASSOCIATION OF AMERICA, ADAPTIVE GOLF 
                         ACADEMY, INC.

              STATEMENT OF EDIE E. DOPKING, PH.D.

    Dr. Dopking. I want to start out by thanking all of you for 
having me and having the rest of us here to talk about this 
today. It is a very important subject.
    I'm the President and Founder of Quantum Leap Farm. We're a 
10-year-old non-profit veterans' service organization located 
here in Tampa, Florida.
    Please accept my sincerest thanks, again, for the 
opportunity to present my testimony today.
    Quantum Leap Farm serves current and former military 
servicemembers and their families from the current conflicts 
all the way back to World War II.
    We provide exercise therapy, cognitive/behavioral 
counseling, family reintegration days, and personal and 
professional growth workshops for military servicemembers, 
families and groups. We use horses as a therapeutic tool and 
catalyst for positive change.
    We've worked closely with the therapists at James A. Haley 
VA Hospital's recreation therapy department for just over 10 
years. Through word-of-mouth referrals from our friends in 
recreation therapy, we also receive referrals from a list of 
other departments at James A. Haley VA: mental health intensive 
case management, social rehab, polytrauma, and spinal cord 
injury, as well as others.
    In addition, we receive referrals from Bay Pines Medical 
Center and from family services centers located on MacDill Air 
Force Base: The Airmen and Families Services Center, CENTCOM 
Family Services Center and SOCOM Family Services Center, and 
from other veterans' service organizations.
    This fiscal year alone, our organization will provide 
services to over 850 unique military servicemembers and their 
families at a cost of over $469,000 to our organization.
    Up until 2 years ago, our friends in recreation therapy 
were judicious with their referrals as they understood we 
didn't have funding to do this work and were donating our 
services entirely. In fact, we have never charged veterans of 
any conflict for any of the services we offer here at the Farm.
    During our 10 years of working together, only two small 
recreation therapy grants became available through the general 
post fund. Our friends in recreation therapy applied for and 
received small amounts of funding for us--approximately $2,500 
in 2005, and $2,900 in 2008--to help cover the costs of 
services we were providing their patients.
    On several occasions, recreation therapists have made 
personal donations to the Farm to help cover the costs of their 
referrals.
    Recently, though, we were awarded a one-time-only privately 
funded grant provided by the Florida BrAIve Fund and 
administered by The Gulf Coast Community Foundation of Venice. 
BrAIve Fund monies are earmarked per the original donor for 
services supporting OEF and OIF servicemembers and their 
families. This grant of $618,566 enabled us to expand the types 
of services we offer, the amount of services we provide, and 
the number of military servicemembers we provide services to by 
1,200 percent in barely 2 years: from 32 unique servicemembers 
in 2008 to 850 in 2010.
    Unfortunately, our BrAIve grant funding expires September 
30, 2010. We are currently seeking alternative sources of 
funding, both private and governmental, and are exploring the 
possibility of establishing a contractual fee-for-service 
relationship with the VA and/or the U.S. Department of Defense 
(DoD).
    This increase in military referrals we've experienced 
reflects a great and increasing need on the part of military 
servicemembers and their families.
    Likewise, it also reflects the great and increasing degree 
to which VA hospitals are depending upon civilian 
organizations, like ours, to assist in healing visible and 
invisible wounds of war that our veterans and their families 
are so bravely enduring. The current conflicts in Iraq and 
Afghanistan are generating more catastrophically injured combat 
survivors than any other conflict to date thanks to great 
improvements in field medicine. The ramifications are good and 
bad, big and small, focal and widespread.
    VA health care workers are handling rapidly expanding 
caseloads of seriously injured patients; both the number and 
medical complexity exceed the caseloads VA medical 
professionals have managed before.
    In fact, our friends at James Haley Recreation Therapy tell 
us that each of their therapists are serving over 130 beds, 
many of their occupants with traumatic brain injuries (TBIs), 
amputations, spinal cord injuries and burns. And those are 
merely the physical injuries. Many of them also suffer 
depression, post-traumatic stress disorder (PTSD) and have 
emotional and family issues to manage, as well. Young families 
are facing a lifetime of caregiving for seriously injured 
family members as they struggle to raise children, work, 
maintain households and marriages. Not surprisingly, divorce 
and suicide rates are high in this population.
    Recreation therapists are instrumental in assisting injured 
servicemembers and families to successfully navigate the 
numerous and significant challenges they face post-injury.
    Recreation therapists help injured veterans and families 
discover the new ``normal'': helping injured veterans 
reintegrate into civilian life; reacquainting family members 
with each other after extended separations and functional 
changes; helping families learn to recreate together focusing 
on strengths, abilities and resources; and promoting healthy 
relationships and engaged, active lifestyles.
    Likewise, civilian veterans' service organizations, like 
Quantum Leap Farm, are instrumental in helping recreation 
therapists do their jobs, helping a large and diverse 
population of injured servicemembers and their families rebuild 
and recover from war-related trauma.
    Recently our attendance at the Conference on Iraq and 
Afghanistan Veterans (CIAV) in Washington, DC, was sponsored by 
our military grantor, The Gulf Coast Community Foundation of 
Venice. Presenters included Brigadier General Loree Sutton, 
M.D., Director of the Defense Centers of Excellence for 
Psychological Health and Traumatic Brain Injury. There were 
also panels of veterans, caregivers, and service providers. 
Some of the Nation's most intelligent and well-informed 
lecturers spoke with legislators, met various department heads 
within the VA, and networked with other service providers 
sharing our experiences working with injured veterans.
    Most relevant among several over-arching conclusions of the 
CIAV Conference: Although there is much great legislation 
currently being passed to help our Nation's wounded warriors 
recover physically, emotionally, socially and financially, it 
seems very little funding is trickling down to the community 
level where it would do the most good. If we're willing to 
award multi-million dollar contracts to defense and other 
governmental contractors, why are we not willing to award 
similar contracts to organizations that help fulfill our 
Nation's promise of caring for those willing to lay down their 
very lives for our freedom?
    As a Nation, we are in unchartered territory. The number of 
profoundly disabled veterans needing long-term care and 
services is rising rapidly and won't peak for years to come. 
The effects on our health care system, our economy and our 
American culture remain to be seen. However, one thing is 
certain: We, all of us, owe these veterans and their families 
our unfailing support and gratitude for their inestimable 
sacrifices.
    It is my pleasure to submit this testimony to you today. 
Thank you again for your time and your consideration.
    [The prepared statement of Dr. Dopking appears on p. 46.]
    Ms. Brown of Florida. Thank you. And I will remind the 
panel to please keep this testimony to 5 minutes so that we can 
get to the questions.
    Thank you for your testimony.

                 STATEMENT OF MELINDA WHEATLEY

    Ms. Wheatley. I'll try to keep it short. My name is Melinda 
Wheatley. I'm a Senior Recreation Therapist with Hillsborough 
County Parks, Recreation and Conservation Department. And I do 
work closely with Paralympic Sport Tampa Bay (PSTB).
    And I'm here today to tell you about Paralympic Sport and 
what we do in conjunction with James A. Haley VA Hospital.
    The mission of Paralympic Sport Tampa Bay is to promote 
health and independence and personal growth to people with 
physical disabilities--mainly, physical disabilities.
    For a long time--talking about getting the education, 
Chairwoman Brown--for a long time people with physical 
disabilities had to participate in things like Special 
Olympics, which pretty much everybody is very familiar with 
Special Olympics. But Special Olympics is mainly for people 
with cognitive deficiencies.
    But Paralympic Sports programs were developed nationally to 
emphasize the importance of sports and recreational activities 
for people whose primary diagnosis was a physical impairment.
    The Paralympic Sport program works with people with 
cerebral palsy, spinal cord injuries, amputation, visual 
impairments, dwarfism, and then other problems like head 
injuries, muscular dystrophy, muscular sclerosis, etc.
    Paralympic Sport Tampa Bay offers year-round seasonal 
programs like track and field, archery, wheelchair tennis, 
swimming, wheelchair soccer, wheelchair basketball, among 
others. And then we also offer 1-day clinics in close 
conjunction with the VA staff.
    Next weekend--as one of the panelists said--we're doing a 
water ski clinic at Lake Wales, which will be the sit-ski 
clinic where all people can participate regardless of their 
abilities.
    Hand cycling--we just had a strength and conditioning 
physical clinic last week which exposes the participants to 
different recreational activities, and then those skills can be 
enjoyed throughout their life. And they're enjoyed by adults 
and youth, as well. They provide--the clinic provides the 
fundamentals of a sport, which can be pursued through team 
activities or individual activities.
    Now, our program has traditionally catered to youth. It was 
originally called Blaze Sports, if anybody has ever heard of 
that. But through the involvement with James A. Haley VA 
Hospital, we've grown to serve more adults.
    We now have a Division 3 wheelchair basketball team, which 
is ranked 16th nationally, and an adult wheelchair softball 
team that is co-sponsored by the Tampa Bay Rays baseball 
organization.
    Reviewed by many across the Nation as a program that should 
be modeled by all communities that have VA hospitals, the 
partnership between James A. Haley VA Hospital and Paralympic 
Sport Tampa Bay is a wonderful marriage. And I like to call it 
that because it's just that: We fit well together.
    Not only, as many people have said, do sports and 
activities promote self-esteem and positive image of the 
participants, but they help release stress and depression as 
well.
    Reintegration into the community after an injury is one of 
the most important aspects of rehabilitation. And the 
relationship is developed when our adult veterans and the 
children that we already serve participate in programs 
together. They're just unique and just so refreshing.
    The adults become mentors to the youth, young athletes. And 
then they have similar disabilities so they share stories. And 
the adults tend to give advice about life situations that 
they've had to deal with and how they've dealt with them.
    But at the same time, the adults are motivated by the youth 
because kids--our kids especially--are fearless and they'll try 
anything, which really inspires the adults to try new things, 
too.
    So now I'd like to tell you a little bit about our office 
facilities in Hillsborough County, which have really, I think, 
benefited us in Hillsborough County, and not only in 
Hillsborough, but regionally, especially in this district, 
Pinellas, Pasco, Hillsborough. People come from all over to 
join in, veterans and youth alike.
    Our facility is called the All People's Life Center. It is 
a wonderfully accessible place for people to recreate and play. 
It is a 44,000-square-foot facility. It's a community center 
which everybody can use, able body and disabled, but people 
with disabilities have priority usage on the facility.
    We offer such amenities as a fitness center, which is fully 
accessible, gymnasium, double gymnasium, a dance room, 
beautiful outdoor trails, and an accessible playground for 
people to enjoy.
    And I have to add to that that sometimes, you know, 
especially our veterans, they come back, they have families 
that if they go to a playground and it's not accessible, then 
the families can't play--the disabled can't play with their 
able-bodied kids. So accessibility is important from both 
aspects.
    The place was designed for people with disabilities in 
mind. So everything down to the showers, down to the sinks, 
down to the way the floor was built, the signage, everything 
about it is totally accessible. It was a pleasure being able to 
help design it.
    So as you can see, our viable relationship with James A. 
Haley Hospital is mutually successful. The veterans have a 
great place to come, and we have successful participants in our 
program.
    I can't say enough about the awesome recreation therapy 
staff both organizations have. We have a team of 10 through 
Hillsborough County Parks and Recreation that offer not only 
sports but community outreach programs, after-school summer 
camp programs for kids. We're offering specialty camps for 
adults and kids this summer.
    But the therapists at the VA hospital have always been so 
wonderful with planning things that they know they will like. 
And they plan that so kids might join and jump in, too.
    And, you know, some things are just for adults and some 
things are just for kids, but we work very well together.
    And even if it's a VA-sponsored event, our staff will come 
join in. If it's a PSTB event, then the VA staff joins in. So, 
like I said, it's kind of a unique marriage. I hope that we can 
continue to work real closely with the VA hospitals and develop 
some new exciting things that everybody can enjoy.
    And I thank you very much for your time in speaking about 
something that's very, very close to my heart.
    Thank you.
    [The prepared statement of Ms. Wheatley appears on p. 48.]
    Ms. Brown of Florida. Thank you.
    Ms. Ackley.

                   STATEMENT OF SANDY ACKLEY

    Ms. Ackley. Yes. Hi. My name is Sandy Ackley. I work for 
Sailability Greater Tampa Bay, which is a non-profit operating 
out of Pinellas County. The services are provided to the 
Greater Tampa Bay area.
    Our mission is to provide affordable, accessible sailing 
activities and education to children and adults of all ages and 
abilities, focusing on community integration to improve the 
quality of life for all involved.
    The concept of our program was born in March of 2001. It 
was at that time a small group of people envisioned and 
implemented an opportunity within their community.
    The challenged individuals that we take out sailing quickly 
realized that the only limitations they faced were those in 
their mind, and that whatever one might set their mind to do 
can be accomplished. This I know because my husband is also a 
veteran who is disabled, and recreation therapy is what kept my 
family strong.
    Sailability is 9 years old now and has built a fleet of 13 
access boats, 3 catamarans and a motor boat.
    Grants, fundraising and local supporters made it possible 
for us to purchase our first 303 servo assist boat that has 
adaptive equipment which includes a ``sip and puff,'' chin 
control, electronic joysticks and adaptive seating, which a 
ventilator dependent quadriplegic would be able to sail 
independently.
    In fact, after training provided by Sailability Greater 
Tampa Bay, Lynn, from James A. Haley, a ventilator dependent 
quadriplegic, set a record here in Clearwater--well, there in 
Clearwater--to be the first ventilator dependent quad to sail 
independently in the United States on an access dinghy.
    Lynn and other veterans come out to our community sails, 
which are held four times a year, to lead the way demonstrating 
the opportunities our waters can provide to veterans while he 
navigates the Clearwater Intercoastal Waterway.
    We have wheelchair-bound veterans from our community, 
recreational rehab and spinal cord programs, various veteran 
support groups, as well as Paralyzed Veterans, James A. Haley, 
Bay Pines Hospital, returning Iraqi veterans accompanied by 
their families and friends and therapists, watch in awe from 
the top of The Miss Beverly, which is known--it's a 24-foot 
pontoon boat that we borrow from the Bay. This is when I know 
that what I do gives our vets a sense of worth, confidence, 
assurance and belief while building on self-esteem reaching 
their goals and drives, as they wave their arms--screaming 
words of joy and triumph with happy tears running down their 
faces. I know this because Sailability is what empowers people 
and kept my family strong.
    The Miss Beverly, again, is a 24-foot wheelchair accessible 
pontoon that resides at MacDill. The Miss Beverly is borrowed 
to take Bay Pines, James A. Haley and community veterans out 
fishing or used as a spectator boat for the more ``I have to 
challenge Sandy'' veteran while others sail the bay. I get them 
all in a boat sooner or later. They learn to trust in, believe 
in themselves again, this I know with certainty.
    Since we are driven to get as many veterans out on the 
water as possible, we also strive to support those who would 
like to facilitate programs such as ours locally, regionally 
and nationally.
    Not only does this enhance awareness of all individuals, it 
facilitates the need to keep our waterways and environment not 
only eco-friendly and pristine but accessible to all.
    We are proud of the fact that since our inception we have 
been able to have a positive impact on many individuals.
    Our program has graduated a multitude of sailors, many of 
which were either mentally or physically challenged, as well as 
able-bodied children, adults, and seniors. Some of those 
physically challenged individuals include, but are not limited 
to, paraplegics, quadriplegics, amputees, stroke survivors, and 
those with neurological impairments such as cerebral palsy, 
multiple sclerosis and head trauma injuries.
    Moreover, we've been able to introduce the experience of 
sailing and touch the lives of more than 500 individuals, along 
with their family members and caregivers. This I know because 
I'm the one who gets the tears of joy, the ``thank you'' cards 
for giving me my life back, the gratitude from recreation 
therapists, staff, and the appreciation from family and 
friends. These sailboat rides are more rewarding to me than I 
can describe. Men that have the wind taken out of their sails, 
from them I get my strength to make others strong.
    Sailability Greater Tampa Bay also has the ability to 
travel to outside counties and support other groups. Our 
presence at these travel events raise awareness in our 
community for the need to maintain community inclusion and 
accessibility for all, while giving our veterans what they need 
and deserve.
    We are obligated to do this for people who gave their souls 
in belief that we will stand by them. We feel that our presence 
and support within our community will fuel the acceleration of 
programs like ours. And this I know because my son is a third 
generation Marine, who volunteered since he was 10 years old 
putting veterans out on the water. These proud veterans taught 
my son loyalty, trust and gave him confidence and strength.
    We pride ourselves on the fact that all these 
accomplishments have been made through an extremely dedicated 
volunteer staff.
    And as we move into the next decade, we anticipate growing 
our program and touching more lives as we live through war.
    Thank you.
    [The prepared statement of Ms. Ackley appears on p. 51.]
    Ms. Brown of Florida. Mr. Windsor.

                 STATEMENT OF DAVID B. WINDSOR

    Mr. Windsor. Good morning. Thank you very much. It is an 
honor to be here. I really appreciate everyone on the same 
wavelength here today.
    For the record, my name is David Windsor. I'm a member of 
the Professional Golfers' Association (PGA) of America. I've 
been a PGA member for 10 years, I've been a teaching 
professional for 20, and for the past 10 years I've been 
teaching adaptive golf.
    I represent the Adaptive Golf Academy, but most 
importantly, as a community supporter of the James A. Haley VA 
Adaptive Golf program every Friday morning at Terrace Hill Golf 
Club.
    As we heard from the first panel, we heard testimonies 
stating about how they felt, the way that they were thinking 
before they were involved with recreational therapy.
    Specifically, with adaptive golf, our participants, the 
therapists, the staff, the supporters, they're helping change 
the way our veterans are thinking; a more positive track.
    It's a noted fact that disability or injury can put 
veterans in a lonely place, both mentally and physically. The 
James A. Haley Adaptive Golf program introduces and involves 
these patients into a fail-proof athletic activity within the 
confines of a positive environment. And this method of 
combining personal and physical interaction takes their mind 
off of that therapy and allows their recovery process to be 
self-initiated. And we heard that quite a bit from panel one.
    In November of 2007, the program was just a couple months 
going, and I had the opportunity to meet a Humvee gunner. His 
name was Jim. He had survived an improvised explosive device 
roadside blast. He was badly burned, 53 percent of his body, 
both legs were broken; one, I remember, being shattered, which 
explained the rods and pins that were extending from his left 
leg.
    His first time out we remember him saying he didn't even 
feel like swinging a golf club. He was just happy to get out of 
the hospital for a little while. That's what he was looking 
forward to.
    Then he was introduced to the SoloRider golf cart. This 
golf cart is designed for wheelchair players to become more 
upright so they can swing the golf club better and get really 
complete access to the golf course.
    He said--he was quoted as saying, ``You know, we have 
classes with therapists and they're great, but we're inside. 
For me, the best was being outdoors and having people like this 
to help crack a few balls . . . this is my best day of therapy! 
This is helping my body get going again, a great way to get 
out, get some fresh air and be with a bunch of people who love 
golf.'' So this is really expanding the therapy that goes on 
outside of the hospital.
    I just want to make a quick note that I actually sent him 
an e-mail. We've been staying in touch a little bit. And, I 
just want to confirm, he's still playing golf.
    But just in a case like his, what started out to be a case 
of cabin fever, being inside those four walls, doing that 
traditional therapy, it just led Jim to experience that greater 
feeling, that better--that good feeling that you get when you 
enjoy it. He's around caring folks that empowered him for the 
future.
    And one thing I do remember, I remember how he had really 
drawn an audience. He was in that SoloRider golf cart, he's in 
an upright position, he had rods coming out of his left leg, 
and he's cracking balls out there and he's drawing an audience.
    And you could just see how his chest started to bow up and 
he was feeling so proud of himself. And everybody started to 
clap. And it was just a feeling that was contagious among 
everyone.
    Just the simple act of getting outside and leaving that 
traditional therapy setting, it just encourages other patients 
to interact in a nonstressful situation in whatever 
organization.
    And they're with their peers that are facing similar 
issues. They're able to talk to other folks that had boots on 
the grounds. So a therapist or a staff or whatever, with that 
veteran, they're on the equation and they're doing their thing 
together. It's a veterans-helping-veterans atmosphere.
    They're there and they can trust a consistent form of 
therapy that they can pursue for the rest of their life. They 
focus on improved connection with their family, their friends 
and co-workers.
    I can't tell you how many times being there helping 
instruct I had someone turn to me after hitting some shots 
right down the middle of the driving range or out on the course 
and they'd say, ``Hey, is this something I can do to bring my 
kids out or bring my wife?'' You know, it's just a great way 
for them to do something together in hometown U.S.A. and just 
get reconnected.
    They're there and they focus on what we say; ``fairways and 
greens'' for you golfers in the room. And that's their escape 
from their issues, just like any of us. Right? We all need an 
escape.
    I don't have to really list and bullet point what the 
adaptive golf really serves, but to name just a few: brain 
injury, spinal cord injury, limb loss, all those that we've 
been aware of here today.
    And, again, we've heard from panel one, you know, how easy 
it is to become detached or disconnected from themselves, from 
their family and their communities. And that's a challenge 
right here that the James A. Haley Adaptive Golf program faces 
and has taken head-on every Friday.
    Did you know that the James A. Haley VA Adaptive Golf 
program is now approaching its 3rd year? It began on September 
28, 2007, a Friday morning, and has continued every Friday 
right here in Tampa Bay.
    The program consists of the James A. Haley inpatients, 
brought by the therapists over to Terrace Hill Golf Club--it's 
a nearby course off of Busch Boulevard--where they're greeted 
by PGA professional Ken Juhn and members of AVAST, which is the 
Amputee VA support team; and it is a solid group of area 
outpatients and volunteers that are there every Friday morning.
    The golf program has been more than just a weekly golf 
outing, but rather a vital part of the rehabilitation process 
and community reintegration process that's taking place.
    And for the record, as I stated, I've been involved with 
adaptive golf for 10 years, so this is not the very first 
program of its kind; rather, it's an extension of a weekly 
program that I helped develop in 1999 in Sarasota, Florida.
    I was a PGA professional. As a club professional I had a 
27-hole golf course, and I was approached to have therapists 
bring out their clients as a golf outing at first. However, I 
soon realized that there was much more to the program than just 
helping them hit a few balls down the fairway.
    And this is the reason why our veterans are coming out week 
after week, playing additional rounds of golf with their 
friends, with their peers at area courses right here in Tampa 
Bay.
    So they are affirming that they want this positive 
environment. It's a therapeutic outlet and it's a 
nontraditional therapy setting.
    At the James A. Haley Veterans' Hospital our active-duty 
soldiers and veterans who face physical challenges or 
complicated barriers with their PTSD, depression, traumatic 
brain injuries, are encouraged to reach functional independence 
so they can get back to their lives. The theme here: The 
quality of life.
    Of all recreational activities we favor the adaptive golf 
experience the most as it introduces the concept to help our 
patients maximize their potential. With adaptive golf this 
process of recovery is self-initiated.
    And in the words of Dr. Scott--What is more American than a 
game of golf? It's the band of brothers coming together on 
Friday mornings. It is something that everyone can learn and do 
no matter where they end up, in hometown U.S.A.
    We have had our CTRS, Kathryn Bryant, not just bringing 
over and maintaining the program on Fridays, but she has 
accompanied a number--I think it's the 2nd year they're going 
to be going to the National Tee Tournament out in Iowa. It is 
an opportunity for veterans around the country to gather for 
such an event, and that's going to continue.
    What's next? We have golf now as part of the 2016 Olympics. 
That means Paralympics are on a lot of folks' minds right now.
    To sum it up, the James A. Haley Adaptive Golf program has 
become a driving force for the rehabilitation process for which 
veterans, active military personnel with disabilities can 
relearn and develop skills which they thought were beyond their 
capabilities.
    Physically, adaptive golf improved their balance, 
coordination, endurance, functional ability for those daily 
activities, decreasing risk of falls and injuries and 
increasing overall quality of life. Mentally, it helps train 
individuals to focus on more positives and develop better, 
everyday life and judgmental skills.
    When you come out to the golf course there's not too many 
people there saying, ``Gee, I think I'm going to play worse 
today.'' They're there looking to improve their skills. And 
they're around that positive environment, improving every time. 
And that just really leads to self-esteem, confidence, 
independence and a feeling of dignity, giving new hope to 
expand their horizons as they transition back into civilian 
life.
    And, in closing, there is one way to know that it's 
Veteran's Day at Terrace Hill. As for the golfers in the room, 
traditionally you would hear out on a golf course, ``Fore!'' if 
someone happens to hit their ball toward another group. But at 
Terrace Hill you're going to hear, ``Incoming!'' And that's 
when you know it's Friday.
    Thank you very much.
    [The prepared statement of Mr. Windsor appears on p. 52.]
    Ms. Brown of Florida. Thank you.
    Thank you for all of your testimony, too.
    I have a couple of quick questions. This question is for 
the entire panel.
    Each of you uses a different recreational therapy: Sports, 
sailing, golf. Is there any particular therapy that's better 
for a veteran depending on their ability, disability or----
    Dr. Dopking. I'll jump in here.
    Ms. Brown of Florida. Do you understand?
    Dr. Dopking. Yeah, yeah. I think it depends on a person's 
personal preferences and their history with a certain sport, 
their interest, their family's interest.
    I think it's important to have a wide variety of sports 
available because there's such a wide variety of military 
servicemembers and their families, you know, there has to be 
something to appeal to everybody, but it's so important to 
offer those things.
    Ms. Brown of Florida. Well, I heard what Mr. Nelson said, 
and it was very interesting because when they first offered him 
horseback riding, he said, ``Absolutely not. What's wrong with 
you?'' But he found he enjoyed it.
    Dr. Dopking. That's the thing about recreation therapy, 
though, is it introduces people to things that they didn't 
really know they were going to like, you know.
    So it's so important for them to be able to explore all 
those options in golf and sailing, you know, and all the 
different sports that you offer, horseback riding, hang-gliding 
and water-skiing. You know, it's so good for them to be able to 
get out there and experience that new ``normal'' that I was 
talking about.
    Ms. Brown of Florida. Well, what I hear you saying is more 
about getting them to do it. Because we can bring them to the 
baseball games and football games, but this is something that 
they're physically participating in, which is good.
    Ms. Wheatley. Right. And it's not only just about the 
physical aspect.
    I mean, when you were asking the panel about what other 
sports and things could be offered at the Veterans' Hospital--
you know, I have a lot of friends that have disabilities 
because I've done therapy with them for so long, I guess, and a 
lot of them are just not really into--they're not into sports, 
they're not into any physical activities, they're more into 
things like woodworking or shooting sports, things like that.
    So you're asking how to expand those programs; you might 
consider looking into things that are daily activities, but--
things that we all do on a daily basis but just need a little 
modification in order to continue those activities when with a 
disability.
    Ms. Brown of Florida. I heard you all talking about the 
cost of funding the program. And I know that we've increased 
veteran funding. But for some reason we have not been able to 
get the VA to collaborate with community partners.
    I think none of the Members are happy with this. And that 
is the area that we're continuing to work on because it is so 
important that as we expand the number of veterans, that we 
expand the community partners we work with as well.
    And so can you talk about the unit cost for caring for the 
veterans? I know that you all are working well together, but 
we're talking about funding, which is a little different than 
the program.
    Dr. Dopking. I know for our organization our cost is $95 
per ride or per half hour. But, you know, Quantum Leap, because 
we have horses there to care for, it's a 24/7 sort of 
operation.
    So, you know, we have staff members that are directly 
involved with the program because they're caring for the 
animals and the horses. And we also have a large number of 
volunteers that are very, very generous with their time that 
help us maintain the program, too. And even with that, our cost 
is $95 a half hour.
    I'm sure that these other programs have some similar costs, 
too. And, of course, you know, we--I'm sure we all get funding 
from numerous places and none of us I think are looking to one 
source to support our entire program.
    I think--I don't want to put words in your mouths, but I 
think we're looking to get paid for what we do, you know, like 
a fee-per-person that we work with or, you know, in a 
contractual relationship, rather than a grant or something like 
that.
    I don't know. What are your thoughts?
    Mr. Windsor. Well, with the golf program, we established 
that as pretty much more of an internal coming from the James 
A. Haley program.
    It was my intention right along to develop this program, 
help them see that and adopt, in which--with the blessing of 
Dr. Scott and Cathy Williams and now Kathryn Bryant helping on 
every Friday--we've gotten to that. So now it's part of their 
programs. There's a general posting fund that's set up to 
specifically help this adaptive golf program.
    And we're just working on a very minimal budget right now. 
We're working together for another year. But right now it's a 
little over $1,000 a month for the services we provide locally.
    Ms. Brown of Florida. How many people participate in the 
program?
    Mr. Windsor. Inpatients could vary every Friday. Could be 
anywhere from three up to six to eight inpatients that come. 
And a large number of outpatients come, as well. And they pay 
their own fee to access the golf course.
    Ms. Brown of Florida. And sometimes you said they come with 
their family members.
    Mr. Windsor. Sure. You may have 20 to 30 outpatients from 
the Tampa Bay area that come.
    Ms. Brown of Florida. And sailing?
    Ms. Ackley. We--it usually costs $60 per hour to put a boat 
out, including staff. We try to put a little in the till for 
wear and tear on the boat. Boat parts are very expensive.
    But we only charge James A. Haley $10 per head. We do----
    Ms. Brown of Florida. Do they just sail or fish or what do 
they do?
    Ms. Ackley. Well, for the first-timers that need to be 
reassured that it's going to work for them, they want to see 
someone else do it first.
    Ms. Brown of Florida. Yes.
    Ms. Ackley. So the returning sailors we put in the boats 
pretty immediately. And then anyone else--spectator, family 
members, the therapists, we even give them a day out on the 
water--they'll be fishing off of the pontoon, The Miss Beverly. 
And then they watch.
    And by the second month they'll come out and they'll get in 
a boat. And it just keeps on rotating out. They keep bringing 
their parents and their grandparents and their kids. And so it 
is a very large family. It's a big family day.
    Mr. Windsor. And I'd like to add that, I mean, we do the 
same thing, you know, minimal cost for the inpatients to come.
    But to do any program properly, to train the staff, to have 
the right equipment, that's where some of the cost can come in 
for--such as the accessible golf carts, some other equipment 
that needs to be welded and modified for that to happen.
    Ms. Brown of Florida. Mrs. Wheatley.
    Ms. Wheatley. Paralympic Sport Tampa Bay staff is funded 
through Hillsborough County Board of County Commissioners which 
consists of four full-time staff for that particular program.
    Everything else we do, you know, we get private donations, 
funding, we do fundraisers, grants, et cetera, et cetera. We 
try to never charge the participants, if at all possible, just 
because usually people with disabilities have a lot more 
personal costs and are many times unable to pay.
    I agree with everybody here that if you've never bought a 
wheelchair or anything like that, adaptive equipment is 
probably three to four times more expensive than anything that 
you and I would have to buy.
    Consider the cost of a vehicle, a van. You know, you can 
buy a vehicle for $15,000. And theirs is going to cost $60,000. 
So, I mean, it's really--life with a disability is very costly 
for some things.
    Ms. Brown of Florida. Congressman Bilirakis.
    Mr. Gus M. Bilirakis. Thank you, Madam Chair.
    You are all non-profits, correct?
    Dr. Dopking. Yes.
    Mr. Gus M. Bilirakis. And you all participate in contracts 
with the local VA?
    Dr. Dopking. Uh-huh.
    Mr. Gus M. Bilirakis. Explain to us how older veterans can 
benefit from these programs.
    Dr. Dopking. My Ph.D. is in aging study. It's very similar 
to gerontology, only we study the process of aging rather than 
older folks themselves. And I would say the need for physical 
activity in older persons is just as great, maybe greater than 
for people who are younger, because really your body and your 
mind is a ``use it'' or ``lose it'' proposition.
    So inactivity, and especially if there's a disability, you 
know, people tend to be more inactive with a disability.
    So older veterans with disabilities need physical activity. 
They just--they really, really need to stay engaged and active 
and probably in a greater way than younger folks do.
    Mr. Gus M. Bilirakis. How many older veterans participate 
in your program? I'd like to ask you first.
    Dr. Dopking. Oh, boy.
    Mr. Gus M. Bilirakis. Approximately, percentage-wise.
    Dr. Dopking. I'll bet you--I don't have those numbers right 
in front of me, but because we always focus on adults, our 
mission is to serve adults, I'll bet 30 percent of our 
population is 50 or older. We've had several World War II 
veterans that were 92.
    Mr. Gus M. Bilirakis. How do you get the word out that the 
services are available?
    Dr. Dopking. We don't have a big budget for advertising--
I'm guessing you guys don't either--so most of it is word of 
mouth.
    Mr. Gus M. Bilirakis. Word of mouth.
    Dr. Dopking. Yeah. And the recreation therapists have done 
a great job of promoting, especially Quantum Leap, and, 
apparently, your programs, as well, and making it available to 
everybody that they touch.
    Mr. Gus M. Bilirakis. Very good. Thank you.
    Anyone else?
    Mr. Windsor. Well, primarily, the Adaptive Golf program in 
its initial launch in September of 2007 was made up of Vietnam 
veteran era, and they continue to be there week in and week out 
as sort of the big brothers for the younger generation that 
appears on Fridays from the VA.
    We've had still a number of World War II veterans, Korean 
war, and they're there. And they get just as much out of it as 
the younger generation. They actually have more of an 
appreciation of a lot of it because they're there and they're 
taking part in it, which gives them that good feeling, that, 
hey, this is--they call it the game of a lifetime. We have the 
tools, the resources, the staff training. They love that 
environment. That's what keeps them coming.
    Mr. Gus M. Bilirakis. Without the golf cart, it would be 
very difficult for veterans to participate in your program; is 
that correct?
    Mr. Windsor. For many. For many. If someone has had a 
recent limb loss and they're working on endurance and balance 
and different issues there, the golf cart is very beneficial 
because it gets them in an upright position. It takes that 
weight-bearing off.
    Mr. Gus M. Bilirakis. Maybe you can show a picture of the 
golf cart. I wanted to bring it in, but I guess it wasn't 
practical.
    How much does that cost?
    Mr. Windsor. Don't quote me. I believe they're right around 
like $9,000, $10,000.
    And for the record, every military golf course and every 
military base should have two of these by now. Not specifically 
the one manufacturer, but I know it was made--maybe Mr. Miller 
would know more about that--but two accessible golf carts 
should be at every military golf course to provide 
accessibility.
    Mr. Gus M. Bilirakis. In the interest of time for the 
panel, how many vets do you have participating in the 
individual programs?
    Dr. Dopking. Our number is as of--our fiscal year ends in 
June. And from July 1 through now, we're over 850.
    Ms. Wheatley. We have, depending on the sport, up to 200.
    Ms. Ackley. Yeah, I have probably up to about 200, 250.
    Mr. Windsor. What was the question? I'm sorry.
    Mr. Gus M. Bilirakis. How many veterans participate in your 
program?
    Mr. Windsor. Inpatients? Outpatients? Everyone?
    Mr. Gus M. Bilirakis. Everyone.
    Mr. Windsor. Well, if you imagine, I mean, at least 20 
every Friday. And it's every Friday. So 1,000 or more. If we do 
clinics, if we do some things for awareness in the community, 
you may have up to 100 that day, 200.
    Mr. Gus M. Bilirakis. Okay. Very good. Thank you very much, 
Madam Chairwoman.
    Ms. Brown of Florida. Mr. Miller.
    Mr. Miller. Madam Chairwoman, I'll pass.
    Ms. Brown of Florida. Okay. Well, I wanted again to thank 
you all very much for your service. And I want to tell you all 
a secret. They're going to be sorry they invited me here 
because now I'm jealous and we have to have these programs in 
my area.
    So thank you very much. In Jacksonville, we have some 
water. We have lots of golf courses. I'm going to get her to 
come over to Jacksonville and get my organizations going.
    Mr. Windsor. And, for the record, you had asked the 
question if all of us are non-profit.
    My entity, The Adaptive Golf Academy, is not. But the goal 
of that is to help non-profits as a service to develop Adaptive 
Golf programs to serve the needs of their clients.
    Ms. Brown of Florida. Good.
    Mr. Windsor. And, really, the main objective is to develop 
a sustaining Adaptive Golf program with every possible VA 
hospital and community to enhance the physical, mental, social 
and emotional well-being of veterans and increase their 
participation around the great game of golf.
    [The following was subsequently received from Mr. Windsor:]

        July 13, 2010

        To: Diane Kirkland, Printing Clerk, Committee on Veteran's 
        Affairs
        From: David B. Windsor, PGA

          I would like to request that the below material be added to 
        my testimony on Recreational Therapy and Healing on June 8. 
        This briefly states our objective for VA hospitals to better 
        serve wounded warriors/veterans and also our contact 
        information.
          The objective of the Adaptive Golf Academy is to educate, 
        train and inspire physical and recreational therapists and 
        directors at VA hospitals around the country to develop their 
        own adaptive golf program and ultimately ``make a difference'' 
        in many veterans' lives.

        Contact info:
        David Windsor, PGA (941) 650-5750
        Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="125673647b765253767362667b6477557d7e7453717376777f6b3c717d7f">[email&#160;protected]</a>
        Website: www.AdaptiveGolfAcademy.com

          Thank you,
            David

    Ms. Brown of Florida. That sounds good. These are in all my 
areas, but we don't have these programs, so thank you very 
much.
    Mr. Windsor. Thank you.
    Ms. Wheatley. We'd love to come up and help train folks. We 
can all share in that and go up and help people, you know, 
train people in recreation therapy and how to implement 
programs.
    Ms. Brown of Florida. That's good. Thank you all very much.
    Mr. Windsor. And I'll bring the golf clubs.
    Ms. Brown of Florida. Yes. I have a set myself and I sent 
them away Sunday because they're rusting from not being used.
    Thank you all very much.
    Dr. Dopking. Thank you.
    Ms. Brown of Florida. All right. The last panel, please.
    So this is the great center that everybody has been talking 
about all day.
    Ms. Cathy Williams, the James A. Haley VA Veterans' Medical 
Center, VA Health Administration, U.S. Department of Veterans 
Affairs. You all are doing a tremendous job.
    And Dr. Steven G. Scott, D.O., Chief, Physical Medicine and 
Rehabilitation Center, James A. Haley VA Medical Center, 
Veterans Health Administration, U.S. Department of Veterans 
Affairs.
    Well, I'll take the word back to Washington that you all 
are doing a good job. You all are getting 11s, not even 10s, on 
the scale.
    We're going to start with you, Ms. Williams. Thank you very 
much.

   STATEMENTS OF CATHY CHIOVITTI WILLIAMS, CTRS, SUPERVISOR, 
RECREATION THERAPY SECTION, JAMES A. HALEY VETERANS' HOSPITAL, 
 TAMPA, FL, VETERANS HEALTH ADMINISTRATION, U.S. DEPARTMENT OF 
 VETERANS AFFAIRS; AND STEVEN G. SCOTT, D.O., CHIEF, PHYSICAL 
 MEDICINE AND REHABILITATION SERVICE, JAMES A. HALEY VETERANS' 
   HOSPITAL, TAMPA, FL, VETERANS HEALTH ADMINISTRATION, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

          STATEMENT OF CATHY CHIOVITTI WILLIAMS, CTRS

    Ms. Williams. Good morning, Congresswoman Brown, 
Congressman Bilirakis, and Congressman Miller. Thank you for 
inviting us here today to discuss recreation therapy at James 
A. Haley Veterans' Hospital. It is truly an honor for me to be 
here.
    The James A. Haley Veterans' Hospital provides recreation 
therapy to veterans and servicemembers within Veterans 
Integrated Service Network 8. The Physical Medicine and 
Rehabilitation Service's Recreational Therapy Section currently 
has 21 full-time employees, 17 of which are recreation 
therapists who possess specialized training, which is a 
bachelor's degree or master's degree in therapeutic recreation. 
Most of my staff are--currently hold certifications in--from 
the National Council for Therapeutic Recreation, and all of my 
recreational therapists are certified brain injury specialists.
    Our goal is to maximize each patient's rehabilitation 
potential through active recreation, leisure and sport 
pursuits, which are designed to improve or maintain the 
physical, emotional, social and cognitive functioning for a 
better quality of life and increased independence.
    Recreation activities enhance physical health, psychosocial 
and cognitive status, and improve functional independence in 
the community.
    Recreation therapy provides resources and opportunities to 
improve overall health and well-being. It improves physical 
health by increasing mobility, range of motion, strength, motor 
skills coordination, vestibular balance, agility and athletic 
skills.
    Recreational therapy also improves psychosocial 
communication, trust and cooperation while enhancing morale, 
life satisfaction, self-esteem, socialization and, of course, 
camaraderie.
    In addition, the program addresses cognitive deficiencies--
because most of our active servicemembers have had brain 
injuries--through attention, memory and perception; increased 
alertness and awareness of surroundings; and reduced confusion 
and disorientation.
    VA clinical staff conducts a thorough assessment to ensure 
that we develop a treatment plan that best meets the needs of 
the individual patient. We work with the patient and his or her 
family to help develop this plan. Activities and programs are 
developed to be appropriate for each individual patient to 
facilitate the best possible outcome.
    In sum, we adopt the ``whole person'' view that considers 
the individual's activity interests and patterns before injury, 
illness and disability, and we focus on returning the patient 
as much as possible to his or her previous functionality, 
ability and activity level to promote active community 
participation.
    The therapeutic recreation staff conducts leisure education 
counseling to provide a baseline of information for patients. 
This counseling enables patients to broaden their perspective 
of what activities are available to them. Patients are offered 
as many opportunities as possible to participate in community 
recreation resources and to improve their overall well-being 
through leisure.
    In Tampa, our recreation therapy programs include 
activities such as archery, animal-assisted activities--which 
is pet therapy--bowling, fishing, horseback riding, air gun and 
trap shooting, basketball, cycling, golf, power soccer, rowing, 
sled hockey, tennis, water skiing, sailing, track and field, 
and most of all, arts and crafts.
    The James A. Haley Veterans' Hospital Recreation Therapy 
program benefits considerably from our multiple community, 
government and university partnerships. We collaborate closely 
with external parties to provide recreational special events 
for inpatients such as trips to Kennedy Space Center shuttle 
launches, cultural and community events, and local sporting 
events such as basketball games, NASCAR events, and, of course, 
the Super Bowl.
    Veterans receiving treatment at our facility also 
participate in VA nationally sponsored events such as the 
National Veterans Summer Sports Clinic, the National Veterans 
Winter Sports Clinic, the National Veterans Wheelchair Games, 
the National Veterans Golden Age Games and the National 
Veterans TEE Tournament.
    The national training exposure and experience that these 
patients receive also--I'm sorry. We have patients that also 
participate in other national events that are often not 
necessarily sponsored by VA, which include Challenge Aspen, 
Lima Foxtrot, the Endeavor Games, and the Paralympics Military 
Sports Camps.
    Our program in Tampa continuously provides patient-centered 
recreation therapy services. This enhances current abilities 
and helps veterans develop new skills through recreation 
activities for daily living, community functioning and, of 
course, quality of life.
    Thank you again for the opportunity to appear before you 
today. My colleague and I are prepared to answer any questions 
that you may have.
    [The prepared statement of Ms. Williams appears on p. 56.]
    Ms. Brown of Florida. Mr. Scott.

               STATEMENT OF STEVEN G. SCOTT, D.O.

    Dr. Scott. Congresswoman Brown, Congressman Bilirakis, and 
Congressman Miller, thank you for the opportunity to discuss 
the James A. Haley Veterans' Hospital Therapeutic Recreation 
Therapy program and its role in rehabilitation of those who 
serve our country.
    In my role--and I've always done rehabilitation medicine 
for over 30 years--I've always emphasized the importance of 
recreation and sport activities in personal development and 
rehabilitation.
    My colleague, Cathy Williams, has presented an overview of 
our current program and its benefits as a patient-centered 
service. I'd like to focus today and discuss the importance of 
recreation therapy to the veterans from Operation Enduring 
Freedom and Operation Iraqi Freedom.
    We are in a new era of rehabilitation and recreation 
therapy. Our society values sports, recreation and leisure. 
Sports and recreation activities have been an important part of 
the lives of our newest veterans, and their identities are 
frequently linked to these activities, so that injuries that 
limit their ability to participate may have a significant 
impact on their sense of self.
    Changes in warfare and battlefield medicine have led to new 
injuries and new challenges in rehabilitation. Some of our 
newest veterans come to the Department of Veterans Affairs with 
brain injuries, ranging from minimal to the most profound that 
we have ever seen in the history of medicine; severe post-
traumatic stress disorders; other mental health problems; and 
multiple injuries that often need prolonged rehabilitation that 
we've never seen in mankind.
    In this era of rehabilitation, recreation therapy success 
is possible through specific inclusion in a multidisciplinary 
rehabilitation team that includes physical, occupational and 
speech therapies.
    Recreation therapy provides an environment of adventure and 
discovery within which each veteran can practice and integrate 
the skills that they learn from other therapy team members.
    For our newest veterans, recreational therapy provides new 
hope, new opportunity to discover new goals and new dreams for 
the future. It is an integral part of our rehabilitation that 
our veterans are provided the opportunity to relearn the skills 
that they once had, to develop relationships, and find new 
meaning and purpose in life.
    In addition to this approach to care, new technology and 
new advances have opened up new opportunity for our veterans to 
participate in recreation activities and sports. New prosthetic 
devices and other assistive technology have allowed people like 
amputees to participate in competitions or sport events or in 
community events where previously they were not able. 
Wheelchair technology has allowed family members to transport 
the most severely injured veterans to community activities, 
allowing them to participate in a wide range of public affairs.
    The Internet and video games have opened new possibilities 
for connecting through social networking. And recreational 
activities such as hunting and sailing, as you heard, that were 
once not possible, are now available.
    The newest veterans have greater interest in extreme sports 
and recreational activities. These include a wide range of 
activities that we've never seen before. We just talked about 
horseback riding, adaptive golf. But we've also seen hot air 
ballooning, we've seen blimps, we've seen flying, we've seen 
kayaking, we've seen water skiing, we've seen hockey, we've 
seen scuba diving. You name the sport and they have 
participated in all of those.
    We have observed severely injured veterans run marathons, 
compete in 20-mile bike races, catch a 100-pound fish. We have 
observed a very severely injured, blind individual who's an 
amputee record a song, composing it in his room on a tape-
recorder at night. The joy to see these experiences is really 
beyond words and beyond what makes us great as a country to 
observe these things.
    Recreational therapy does give a freedom to those who 
fought for our freedom: freedom to run when they couldn't 
stand, freedom to think when they could not remember their 
name, freedom to be successful when they felt lost, and a 
feeling of hope for a new meaningful life at home.
    Thank you for this opportunity to appear before you. And my 
colleague and I are prepared to answer any questions you might 
have.
    [The prepared statement of Dr. Scott appears on p. 57.]
    Ms. Brown of Florida. Thank you. Thank you both for your 
testimony.
    Dr. Scott, let me ask you this question. Well, let me just 
make a statement first.
    There are 30,000 suicides in the U.S. every year, 20 
percent of which are veterans. That's about 6,000 a year. 
Suicide rates are up 26 percent from 2005 to 2007 for young 
veterans age 18 to 29. Veterans who used to be in a health care 
system were less likely to commit suicide than those who were 
not.
    What role do you think what we're doing with recreation 
therapy at your center can play in helping to combat the number 
of young veterans committing suicide?
    Dr. Scott. There's actually documented studies that show 
that recreational therapy and adaptive sports do reduce suicide 
rates.
    And this should be emphasized and done more frequently, to 
help maybe to reach out to those who we haven't reached.
    And this is an opportunity that we can do that and do it in 
a positive way. And as you mentioned, reduce that terrible 
statistic so that we can give at least an opportunity that we 
can--in some type of healthy environment.
    Ms. Brown of Florida. Yes.
    Dr. Scott. And we can tell them what's right and not what's 
wrong, and what's good and not what's bad, and what's well and 
not what's sick. And I think with that approach we'll have a 
better outcome.
    Ms. Brown of Florida. Thank you very much.
    Ms. Williams, as you heard in the earlier testimony, one of 
the questions had to do with funding. And I think it was a 
comment about fee-for-service or how we can get additional 
resources to some of your stakeholders. The VA has been very 
slow to collaborate with community groups that help us with our 
veterans.
    Ms. Williams. Well, basically, where we're at is we 
function off what's called a general post fund, which is donate 
a dollar. So at our VA we have to connect the dots with the 
community. So when we saw the service and we saw the need we 
were able to reach out to the community and kind of connect the 
dots.
    Ms. Brown of Florida. So these are not taxpayer dollars.
    Ms. Williams. These are all donated funds.
    Ms. Brown of Florida. Okay. And what kind of budget do you 
have for the donated funds? I know it varies, and it's probably 
down this year.
    Ms. Williams. Yes, ma'am. With those in kind donations, 
which are non, you know, cash donations for equipment and other 
things, I brought in almost $500,000 last year.
    But, again, it takes a lot of money to run as many patients 
as we are running through our program. So it takes a large 
amount of money to have that outcome.
    Ms. Brown of Florida. I see.
    Mr. Bilirakis.
    Mr. Gus M. Bilirakis. Thank you. Question for both 
witnesses: Has it been proven that a veteran may take less 
medication due to these recreational programs?
    Dr. Scott. Absolutely. One of the things is as you get more 
active and as you start to develop a healthy lifestyle you 
become less in need of dependency on medication, less in need 
of dependency on being sedentary, less dependent on really 
health care in general, which is good, you know, because you're 
out there and being productive. And so it has those positive 
benefits. It's a hidden cost value that we need to probably 
emphasize more.
    Mr. Gus M. Bilirakis. Thank you.
    Ms. Williams. As you can tell from the first panel, when 
you actually talk to the patients, as they become more 
involved, they're--if they were taking medicine for depression, 
they'll tell you that they're still taking it, but they now 
have better quality.
    So I can't necessarily say that it's decreased. I just know 
what our successes are, that we see patients that have severe 
PTSD and they're wandering around and they don't really know 
what to do. You know, we can guide them, we can kind of contain 
them back into their life.
    And, you know, I can't answer the question: Does it 
actually decrease medicine? I don't know. Can I tell you that 
it helps with quality? Absolutely. And we have testimony on 
that.
    Mr. Gus M. Bilirakis. Appreciate it. Doctor.
    Dr. Scott. I just want to add your first witness today 
stated she was in a chronic pain program and was able to reduce 
medications. And what we see is they come home with a whole 
smorgasbord of medications, tons of them, and too many of them, 
they can't even remember what they're taking.
    And one of the first things we do is get them active and 
get them in recreation, get some fun back into their life, fill 
them with self-esteem, and reduce their medications.
    And in our pain program, recreational therapy is an 
integral part of that. And almost everyone gets off narcotics, 
reduces their medications dramatically, improves their 
function, improves their quality of life and has all the 
positive outcomes.
    Mr. Gus M. Bilirakis. That's vitally important as far as 
I'm concerned.
    And how much Federal funding do you receive? How much does 
Haley receive for the recreation program?
    Dr. Scott. I will have to actually get back to you on that, 
because they don't really fence in the money specifically for 
it. So we can do our best to put that together and get back to 
you on that answer.
    Mr. Gus M. Bilirakis. Thank you.
    [The VA subsequently provided the following information:]

          In fiscal year 2010, the James A. Haley Veterans Hospital in 
        Tampa, FL, received $29,719 to support the various National 
        Games (such as the Wheelchair Games, the Golden Age Games, 
        etc.), and received $1,566,076 for staffing expenditures. The 
        total recreational therapy budget allocation for this facility 
        is $1,595,795.

    Ms. Brown of Florida. Because I'm just wondering--you're 
telling me that not any of the Federal funds that come to the 
medical facility are used for recreational therapy.
    Dr. Scott. Well, funding generally comes from the Veterans 
Equitable Resource Allocation model system, which is based on 
average cost.
    Ms. Brown of Florida. Right, right.
    Dr. Scott. From the DoD appropriations if they're active 
duty. Or sometimes you get third-party.
    But, specifically, recreation therapy, it's not fenced in.
    Ms. Brown of Florida. Well, I think we really need to take 
a look at this area, because I think the therapy you all are 
providing shows benefits in quality of life, suicide prevention 
and incorporating the family in what we're doing. I think it's 
really important.
    And, of course, I want all of these partners that you all 
have gone out and gathered, but I think these are programs that 
should be instituted in all of the programs, really.
    Mr. Gus M. Bilirakis. I'm with you, Madam Chair. I don't 
think there is a line item----
    Ms. Brown of Florida. Yes.
    Mr. Gus M. Bilirakis [continuing]. Specifically in the 
budget for recreation therapy, so I want to work with you on 
that.
    Ms. Brown of Florida. I think we should look at it. And 
we'll look at it because we have a conservative Member on the 
panel also.
    Mr. Gus M. Bilirakis. I'm pretty conservative, too, but I 
consider this a priority.
    Ms. Brown of Florida. That's right. I am quoting the first 
President of the United States, George Washington: ``The 
willingness with which our young people are likely to serve in 
any war, no matter how justified, shall be directly 
proportional as to how they perceive the veterans of earlier 
wars were treated and appreciated by their country.''
    Mr. Gus M. Bilirakis. One more question. Dr. Scott, I 
understand that last July the VA Central Office approved your 
proposal to hold an East Coast National Veterans Sports Clinic 
in 2010. Congratulations. This will complement the West Coast 
program in San Diego.
    What is the status of the funding for that particular 
program?
    Dr. Scott. Well, we were planning to move it ahead 1 year 
and the funding stopped so we weren't able to hold it this 
year.
    We're supportive 100 percent behind the idea. We had some 
great concepts of having the flag come down from Washington and 
have all the service organizations along the East Coast join 
them all the way down and participate in that. And I think it 
would have been a great event.
    And more importantly, I think Florida and the East Coast 
having a yearly type of summer event would be important because 
of reaching the media, and also all the veterans that we have 
here.
    And then also, as you mentioned, all the benefits you heard 
this morning, which would be important.
    And we can do it here in Tampa with minimal cost. We 
thought it would not be that costly either.
    Mr. Gus M. Bilirakis. Approximately how much would you say 
it would cost?
    Dr. Scott. About $100,000.
    I said I'd do it for nothing because it's part of our 
rehabilitation program.
    I feel it's so essential that they have an opportunity--
that they get an opportunity to compete, that they have an 
opportunity that their families could come together, 
communities come together, and that they can be recognized with 
achievement that I thought that we could probably do it for 
nothing. It would be worth it as part of rehabilitation care.
    Mr. Gus M. Bilirakis. If you did it for nothing, it would 
take away from other programs; is that correct?
    Dr. Scott. That's correct. Without the support that we 
would need from the Central Office, we couldn't host the 
national event. We had to have some support higher up.
    Is that right?
    Ms. Williams. Yes.
    Mr. Gus M. Bilirakis. Chairwoman Brown, will you join me in 
writing a letter to the Secretary?
    Ms. Brown of Florida. Yes. I have a couple of questions for 
him.
    Mr. Gus M. Bilirakis. Okay. Yeah. You go ahead.
    Ms. Brown of Florida. You said that it would cost $100,000.
    When was the program planned? When would they have the East 
Coast----
    Dr. Scott. We were thinking April.
    Ms. Brown of Florida. It would have been April.
    Ms. Williams. Because of the heat.
    Ms. Brown of Florida. It is Florida.
    Mr. Gus M. Bilirakis. Apparently, there's only one in the 
U.S. on the West Coast and it's extremely successful, is that 
correct, in San Diego?
    Dr. Scott. I don't know. Well, we didn't feel it would be 
as successful as we could do.
    Ms. Brown of Florida. Now he's messing with the Chairwoman.
    But my question to you is: How long does it take to plan 
such an event? Because I'm sure----
    Ms. Williams. I can answer. I think if we were actually 
going to do it correctly that we would need at least 6 months' 
preparation, because you have to find venues, you have to be 
able to move these patients, these outpatients, from place to 
place; and they're all disabled, so, therefore, you have 
transportation cost and----
    Ms. Brown of Florida. But do you think you could do it for 
$100,000?
    Ms. Williams. Oh, absolutely.
    Ms. Brown of Florida. All right.
    Ms. Williams. I think we can--actually, you know, I think 
we can do it not only better than California--it's just so 
expensive to fly people across the country to participate in 
something--we can do it better.
    Ms. Brown of Florida. We're talking about the East Coast.
    Ms. Williams. Well, they're currently doing it in 
California now. And this year they set the limit at 100. And 
our goal was when we're planning it, we could actually do 100 
people just in our region, just people in our own region that 
we've actually treated.
    Ms. Brown of Florida. Well, let me see, how far is your 
region? Does it go to Jacksonville?
    Dr. Scott. Yes, it does. It covers the Panhandle.
    Ms. Brown of Florida. Well, I think we could plan one for 6 
months. I'll get with the Secretary and we'll get the funds, 
we'll raise it.
    Mr. Gus M. Bilirakis. Congressman Miller, are you going to 
help us with that?
    Mr. Miller. Yes, sir.
    Ms. Brown of Florida. All right. Sounds like a plan.
    Mr. Gus M. Bilirakis. Thank you very much.
    Ms. Brown of Florida. Mr. Miller.
    Mr. Miller. Doctor, if you would, the significant injury in 
ongoing wars is TBI. How does recreational therapy assist with 
TBI?
    Dr. Scott. First, it's raised the awareness of this 
impairment to the sports world and the recreational leisure 
world.
    We didn't even know how to classify TBI at the beginning of 
the war. We had no classification.
    We did not even know how to classify the severity of the 
head injury so they could be in sports to compete.
    So we had to start from scratch just like we've learned to 
treat and medically rehabilitate them differently. We've had to 
start from scratch to start to learn new ways and new 
activities that they could participate in.
    And what we find is that many times the head injury 
population, especially the mild head injuries, they have 
behavioral, cognitive memory type disorders, and have 
interpersonal skills defects. And what we find with the 
activities of sports and recreation, all those things are 
treated nonmedically, without drugs and in a non-
institutionalized type setting.
    And, if I may add back to the Subcommittee, a lot of times 
you talk about costs, but this could be a cost avoidance if we 
could have them take less meds, if they don't get 
institutionalized, if we can reduce the number of hospital 
visits for these mild head injuries and severe head injuries.
    So, in terms of head injuries, we don't limit them based on 
a head injury. Maybe deep scuba diving because of the 
intracranial pressure.
    I remember when we did our balloon flying, the biggest 
scare we had was we took a couple of guys with seizure 
disorders. And when you are a couple hundred feet above the 
ground, you don't want anybody to have a seizure from a head 
injury. And so we took some risks and that's what it's about 
many times.
    And by doing that, they learn they're able to go out and be 
involved in the community without fear and without fear that 
something is going to happen to them.
    Mr. Miller. Ms. Williams, have you had any problematic 
issues with any of the organizations that you've been involved 
with? If you have, how did you resolve them?
    Ms. Williams. You mean, for the community partners? Yes, VA 
we--what we do is we consider a memorandum of understanding. 
And it's, basically, the agreement is like a handshake that 
says what the community can provide for us and what we can 
provide for the community. And I've just recently had a little 
bump in the road with one of our organizations.
    And, you know, the VA's large and we have the support of 
legal counsel. And we went to legal and said, ``What do we do? 
We need to terminate this partnership.'' And they said okay. 
And so we mailed a letter and said, ``Thank you for doing what 
you do; however, we don't want to partner with you anymore.''
    I haven't heard anything yet, so we'll see what happens. 
But, yeah, we--it happens.
    I mean, if your focus--our focus might be different than 
the community. And we have to stay focused on what's important 
for the veterans.
    Mr. Miller. Thank you.
    Ms. Brown of Florida. Thank you. Thank you all again for 
your service to our veterans. And thank you for doing such a 
great job. Mr. Bilirakis and Mr. Miller, do either of you have 
any further questions?
    Mr. Gus M. Bilirakis. Well, I just wanted to thank everyone 
for attending. I want to thank the City Council for offering 
City Hall chambers this morning.
    And thank you, again, Madam Chair, for coming down from 
Jacksonville.
    And thank you, my good friend, Congressman Miller, for 
coming, as well. I appreciate your service to our country and 
God bless everyone.
    Ms. Brown of Florida. Members have 5 legislative days to 
make any revisions to the record.
    And this hearing is officially over. But if you all don't 
mind, I want to do something very different.
    Will all participants come down front so we can take a 
picture? We'll get ready for the letter we're planning to send.
    Mr. Gus M. Bilirakis. You're always thinking ahead.
    Ms. Brown of Florida. Yes. So will all of the participants 
come down front?
    Thank you.
    [Whereupon, at 10:54 a.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

                Prepared Statement of Hon. Corrine Brown
    The Subcommittee on Health will now come to order. I would like to 
thank everyone for attending this hearing. I would also like to express 
my sincere gratitude to the city of New Port Richey and Congressman 
Bilirakis for hosting us today.
    Modern medical advances have increased the survival rate of our 
soldiers who sustain injuries while serving this country, but these 
soldiers are often left with serious and complex wounds which require 
continued care once they return home. One of the key challenges facing 
VA today is the ability to meet the rehabilitative needs of our 
veterans by providing a broad and varied menu of therapies and 
treatments. There is a clear need for high quality rehabilitative care 
for all of our veterans, both of older generations and those now 
returning from Operation Enduring Freedom and Operation Iraqi Freedom. 
Today's hearing offers us the opportunity to examine a particularly 
exciting rehabilitative method.
    Recreational therapy is an ideal component of the rehabilitative 
regimen because it allows veterans to be active by engaging in their 
favorite sports and recreational activities, while simultaneously 
healing the mental and physical wounds of war. Recreational therapists 
can use a variety of techniques, including sports, games, dance, arts 
and crafts, animals, drama, music, and community outings to help reduce 
depression, stress and anxiety; enhance basic motor functioning; and 
build confidence among the program participants. In other words, 
servicemembers and veterans have an opportunity to engage with their 
communities and participate in sports and other activities that they 
may have enjoyed prior to sustaining their war injuries.
    Today, I look forward to hearing from the veterans on our first 
panel about their personal testimonies on how recreational therapy has 
benefited them. I am also eager to learn from our second and third 
panels about the different types of recreational therapies that are 
available to our veterans, and how VA and private organizations are 
working together to offer this valuable treatment option to wounded 
warriors in the Tampa region and across the country.
    I now recognize Mr. Bilirakis for any opening statement that he may 
have.

                                 <F-dash>
                Prepared Statement of Hon. Gus Bilirakis
    Good morning. I am so pleased to be here today in the heart of the 
9th Congressional District and want to thank my fellow Floridian 
colleagues, Corrine Brown and Jeff Miller, for taking time out of their 
busy schedules to be here today.
    It is a pleasure to serve this great State with two individuals so 
committed to championing the best interests of our servicemembers, 
veterans, and all of the residents of Florida. I am grateful to both of 
you for being here. I am proud to call you colleagues and even prouder 
to call you friends.
    Most importantly, I am happy this morning to see my constituents 
from the Ninth District. Whether here as a witness or as an interested 
participant--seeing so many that have gathered so early and are willing 
to spend their Tuesday morning exploring the role of recreation therapy 
in healing our wounded warriors is a testament to the depth of 
patriotism and caring in this community. I thank you for being here--
representing you is a true honor.
    Throughout my career, honoring the service and sacrifices of our 
veterans has been among my very highest priorities. Ensuring the men 
and women who fought so bravely for our freedoms are given access to 
the highest quality care and services is a commitment I take seriously. 
That is why I specifically requested a seat on the Veterans' Affairs 
Committee when I was elected to serve in Congress in 2006.
    Since then, I have introduced numerous bills, many of which were 
incorporated into law, aimed at improving veterans' care and benefits. 
I was pleased to lead the effort to bring a VA outpatient health clinic 
to Hillsborough County, to work with local and national VA officials to 
expand the Pasco County Outpatient Clinic and bring additional services 
such as dental care to Ninth District veterans.
    I am very appreciative of the fact that we have a world-class 
medical and polytrauma center in the nearby James A. Haley VA Medical 
Center. The dedicated medical staff at Haley is second to none. 
However, it is always important that we strive to enhance the care and 
services provided to our brave veteran patients. And, today, I 
anticipate learning from those of us gathered here about the important 
topic of recreation therapy.
    Recreation therapy is a therapeutic endeavor that improves an 
injured veteran's physical, mental, emotional, and spiritual health 
through activities aimed at increasing independence and quality of 
life.
    It doesn't surprise me that Florida is a national leader in 
recreation therapy. And, I look forward to taking the ideas we discuss 
today back to Washington to improve the lives of veterans not only in 
our State, but in every VA facility throughout the Nation.
    In closing, I would like us to take a moment to recognize and honor 
those veterans in the room. As always, I am humbled by your bravery and 
your dedication to a cause bigger than yourselves. Because of your 
efforts, we are able to gather this morning freely, safely, and 
democratically. On behalf of a grateful Nation, I thank you for your 
service. I yield back my time.

                                 <F-dash>
                 Prepared Statement of Hon. Jeff Miller
    Thank you and good morning.
    It is a pleasure for me to join my colleagues, Corrine Brown and 
Gus Bilirakis, in this historic city of New Port Richey to participate 
in this important hearing. Having worked together for several years on 
the Veterans' Affairs Committee, we have made great strides toward 
better serving those who served our country.
    I am honored to represent the Western Panhandle of our great State 
and to stand for our servicemembers, veterans and all Floridians with 
my two distinguished colleagues and friends.
    I want to welcome our witnesses and thank all of you for taking the 
time to be here today and to share your story, wisdom and expertise 
with all of us.
    For those veterans on our witness panels and in the audience, I 
salute you for your service to this great Nation. You exemplify the 
bravery and goodness inherent in our beloved State and all of Florida 
should be proud to call you their own. Your sacrifices will not be 
forgotten.
    A sergeant once said that ``morale is what makes your feet do what 
your head knows just ain't possible.'' I am sure this sentiment 
resonates with all servicemembers and veterans who are accustomed to 
performing seemingly impossible tasks with courage, integrity, and 
ease.
    That is also the attitude that lays the groundwork to understanding 
the significance of our discussion today about the role of recreation 
therapy in the healing process. Maintaining a sense of self sufficiency 
and a high quality of life is vital as our wounded warriors move 
through the process of rehabilitation and reintegration. It is 
important for VA to provide guidance and support the allocation of 
funds for recreation therapy because recreation therapy supports 
wellness and provides the first opportunity to engage veterans in 
sports as a part of their rehabilitation.
    I very much look forward to our discussion about recreation therapy 
services in the VA and exploring how we can better design, expand, and 
maximize these programs to meet the individual needs and support the 
recovery and enrich the lives of every veteran patient.
    Again, I thank you all for being here and yield back.

                                 <F-dash>

                Prepared Statement of Mary Ann Keckler,

                       Spring Hill, FL (Veteran)

    I am a veteran enrolled in the James A. Haley Medical 
Center since 1992. I have been both an inpatient and 
outpatient.
    I am also the VAVS representative for the DAV at this 
facility, as well as I have a son who is also enrolled in this 
facility as a spinal cord patient, 100 percent total permanent 
injured on active duty.
    As an inpatient for 3 weeks in September 1996, in the pain 
management program, I have had the opportunity afforded me to 
deal with many aspects of therapy to help with my pain problem. 
The one that stood out the most, and the one that worked on the 
mental release of my pain was recreation therapy. All other 
therapies, i.e., physical, mental, all just enhanced the pain, 
as your mind on these two is constantly on the issues of the 
body. Not that they were not helpful, they were. But, 
recreational therapy kept my mind off the problems I was 
dealing with.
    When I went into the pain program, I was in a great deal of 
depression. Getting up every day was a major chore for me. I 
was encountering muscle spasms and living on Flexeril to 
counteract them. This put me in an extreme lethargic state.
    While in the pain program, I was interacting with others 
with similar problems. Recreation therapy kept my mind off my 
problems. I was able to show my creative side and also had 
socialization with others. We not only worked with our hands, 
but we went out on outings as a group. I then forgot I was 
suffering from chronic pain (mind over matter).
    Suicide is a definite relation to depression. Pills that 
mask the pain (Flexeril, Valium, Morphine, Halcion, Demerol) 
can cause major depression leading to suicide, which from these 
I am a survivor and I could feel myself going down that path 
again. I then took measures to correct this effort. I am pill-
free since 1996, and deal with my pain in other ways.
    While in the hospital I had the opportunity to clearly take 
hold of my problems. Recreational therapy played a major role 
in this. Not only did I have an hour a day with the therapist, 
I also took projects back to my room to work on later on. If I 
had a problem at any time working on a project, a therapist was 
always available.
    The present Chief of Recreation Therapy, Cathy Williams, 
was one of my therapists. She always was willing to work with 
me on projects. This eliminated any thoughts of my physical 
aspects of pain. Again, mind over matter. It beats all pain 
medications and helps with any thoughts of depression or 
suicide. This is the best medicine yet.
    Not only have I been successful with it, as a volunteer I 
have seen this work on many occasions. By the way, this is why 
I became a volunteer, to make a difference and help other 
veterans.
    Here is the story of another veteran. This young man has 
been in the hospital in the spinal cord injury center for 
several years. He is now in the long-term care facility in 
spinal cord. When I first met him, he would not speak hardly to 
anyone. As an amputee, he also was on pain meds. Depression had 
set in on him, and he was feeling sorry for himself. He was 
pretty well bedridden. The DAV had sponsored a pitcher from the 
Detroit Tigers through recreation therapy. This veteran loved 
baseball, this was the highlight of his stay. I would then 
visit him on a regular basis and also spoke to recreation 
therapy about programs to the bedside. This was done, a smile 
appeared. He is now in his wheelchair all over the hospital, 
and he looks forward to the outings that recreation therapy 
sponsors. He is the first one outside waiting to be loaded into 
the bus.
    I am again working with another spinal cord veteran that 
indeed tried to commit suicide lately. He and I have had some 
discussions on this matter. He also is now in recreation 
therapy daily and has a smile on his face, as he also goes on 
the outings. And this makes his day. Happiness goes a long way.
    The present Chief of Recreation Therapy has worked very 
hard on programs that make a difference for our veterans, both 
in and out. Winter sports clinic, wheelchair games, golden age 
games, disability golf, horseback riding, sports venues. There 
is no time to feel sorry for yourself.
    This has all been put together in the last few years. Three 
years ago I went to the past chief to put together the winter 
sports clinic program, which is sponsored by the DAV. The 
answer was this is Florida, people do not ski or participate in 
cold weather activities. My answer was that we are all mostly 
transients from other areas of the country and have at some 
time or another experienced winter sports. Under the new chief, 
this is a reality and many are participating.
    My son, a spinal cord patient, when he is hospitalized, his 
forte is computers. Recreation therapy helps set up a computer 
for them to use or hooks up the one they bring in. Again, the 
outside world is available to them.
    Bedside programs are available, football pools, and they 
all look forward to pizza parties sponsored by organizations 
and run by recreation therapy, dinners sponsored by 
organizations through recreation therapy. Someone from that 
department needs to be on board when these are taking place 
and, believe me, we have many. Ice cream socials. The list goes 
on and on. Without the recreation therapy department, this 
would not be possible. I, as a volunteer, have the opportunity 
to work with recreation therapy in many aspects and areas of 
the hospital.
    They do make a major difference.
    My life has taken a turn because of their efforts. As a 
volunteer, I also have the opportunity to go on the outings and 
help them. When on outings, they also have to act as a 
therapist and nurse's assistant. Their training goes beyond 
just fun and games.
    If it was not for recreation therapy and the staff that we 
have now, we (veterans) would not be able to participate in as 
many functions as made possible for the amount of veterans and 
active duty, both inpatients and outpatients, that we presently 
serve.
    In summary, with regard to the above, recreation therapy is 
a must along with health care, to address the medical needs of 
our patients on both a mental and physical aspect.
    They are trained professionals in this respect and deserve 
to be noted as such.
    Respectfully submitted.

                                 <F-dash>
         Prepared Statement of Davis Celestine, Vice President,
  Paralyzed Veterans of America, Florida Gulf Coast Chapter, Tampa, FL
    My name is Davis Celestine and I was injured in 2001 in a training 
accident going over to Afghanistan for our yearly detachment. After my 
accident, I woke up in a hospital bed with several doctors around me. 
At first I thought it was a dream until I came to the reality that I 
was not in a dream.
    One of the doctors turned and said to me, ``You might never walk 
again, but miracles happen every day.'' So with that said to me, I 
decided to do whatever it takes to stay active in my daily life. 
However, I was shipped off to the James A. Haley Hospital for Rehab and 
that was when I was introduced to Cathy Williams and Jennifer Day. From 
there they got me started with simple stuff such as playing the game 
``TROUBLE'' and card games. They paired me up with a paraplegic named 
``Max'' and he told me if your fingers are not working as well, use 
your mouth to make a pair of moccasins for your wife. So with that type 
of motivation in their clinic, it was an inspiration to be in there. 
Now, their program has grown so well, they have pushed me into the 
Paralympic world to compete in handcycling and swimming.
    Also, having good family support really helps. My wife, Deborah, 
and my twins keep me going and to be the best that I can be. In my 
spare time, I volunteer at the local chapter, where I'm the Vice 
President and fundraising chairman. I give back to my local hospital by 
trying to get the newly injured involved in the great sports program.

                                 <F-dash>
                   Prepared Statement of Lee Nelson,
                       Land O'Lakes, FL (Veteran)
    My name is Lee Nelson. I am a Chaplain in the U.S. Army. I received 
a spinal cord injury in a traffic accident in Italy while traveling to 
work on the morning of 11 August 1990. I got in a traffic accident with 
a Semi-tractor trailer. After receiving back surgery in Italy, I was 
transferred to the Tampa VA hospital in September 1990 from the Walter 
Reed Hospital in Washington, DC. While in the hospital in Tampa, I 
participated in different therapies such as physical therapy, 
occupational therapy, speech therapy, and recreational therapy. In 
recreational therapy, I participated in field events, basketball, and 
horseback riding. These different activities were designed to increase 
my strength, stability and coordination. The horseback riding took 
place at the Quantum Leap Stables in Odessa, FL. We would go to the 
stables on Tuesday morning and ride for about an hour each day.
    When the recreation therapist asked me about horseback riding, I 
thought that I would not be able to ride because when I rode in years 
past I would stay on the horse by wrapping my legs around the horse and 
holding on with my legs. Now that I am a paraplegic, that is 
impossible. But she encouraged me to try and there would be a person 
walking on either side of me and one leading the horse by the reins. I 
understood that this was an ongoing program that the hospital had and 
other paraplegics had participated so it must not be as impossible as 
it sounded to me.
    Upon arriving at the stables I took my wheelchair up a ramp, which 
the horse stood beside, and they had an apparatus that hung from the 
ceiling and went under my arms and held my legs up and carried me from 
my wheelchair to the saddle on the horse. I held on tightly to the 
saddle horn and relied on my ``side-walkers'' to catch me. As the horse 
began to walk, I held on to the saddle horn with a death grip and 
managed to balance myself on the horse, despite the movement. After 
about 15 minutes of walking around, my arms were exhausted from holding 
on with such a tight grip. So I loosened my grip and relaxed and relied 
on my balance to keep from falling off the horse. I have kept going to 
the stables each Tuesday for the past 5 months. We have ridden around 
the fields in the area and I have guided the horse around obstacles. 
After several weeks of riding, one day the horse tried to kick a fly 
off his backside while I was trying to guide her to the left. I was 
already leaning to the left so when she kicked the momentum threw me in 
the direction that I was leaning and I fell over to the left side of 
the horse. Because of the increased stability in my trunk muscles from 
all the weeks of riding, I was able to stay on the horse and hang onto 
her neck and my ``side-walker'' managed to straighten me back up in the 
saddle and I could continue the ride.
    While my physical therapist works on my core muscles as part of my 
therapy, riding on the back of a horse has improved my core stability 
more than all my physical therapy combined. I am now able to sit 
straighter in my wheelchair and I am able to transfer from my 
wheelchair to other devices easier, such as my bed, my car, a couch or 
a La-Z-Boy chair as well as my stand-up machine that allows me to stand 
up and put my full weight on my legs, which strengthens the density of 
the bone mass in my legs. Because my core muscles are stronger I am 
able to stay in my wheelchair for longer periods of time. Now I can 
stay up in my chair all day rather than just a few hours at a time that 
I was doing last fall.

                                 <F-dash>
             Prepared Statement of Edie E. Dopking, Ph.D.,
       President and Founder, Quantum Leap Farm, Inc., Odessa, FL
    Good morning. I'm Dr. Edie Dopking, President and Founder of 
Quantum Leap Farm, a 10-year-old non-profit veterans' service 
organization located here in Tampa, Florida. Please accept my sincerest 
thanks for the opportunity to present my testimony today. Quantum Leap 
Farm serves current and former military servicemembers and their 
families from the current conflicts all the way back to WWII. We 
provide exercise therapy, cognitive/behavioral counseling, family 
reintegration days, and personal and professional growth workshops for 
military servicemembers, families and groups. We use horses as a 
therapeutic tool and catalyst for positive change.
    We've worked closely with the therapists at James A. Haley VA 
Hospital's recreation therapy department for just over 10 years now. 
Through word-of-mouth referrals from our friends in rec. therapy, we 
also receive referrals from a list of other departments at James A. 
Haley VA: mental health intensive case management, social 
rehabilitation, polytrauma, and spinal cord injury as well as others. 
In addition, we receive referrals from Bay Pines Medical Center and 
from family services centers located on MacDill Air Force Base: Airmen 
and Families Services Center, CENTCOM Family Services Center, SOCOM 
Family Services Center, and from various other local veterans' service 
organizations. This fiscal year alone (July 1, 2009--June 30, 2010) we 
will provide services to over 850 military servicemembers and their 
families, at a cost of over $469,000.00 to our organization (please see 
Attachment A).
    Up until 2 years ago, our friends in recreation therapy were 
judicious with their referrals as they understood we did not have 
funding to do this work and were donating our services entirely. In 
fact, we have never charged veterans of any conflict for any of the 
services we offer here at the Farm. During our 10 years of working 
together, only two small recreation therapy grants became available 
through the general post fund. Our friends in rec. therapy applied for 
and received small amounts of funding for us (approximately $2,500 in 
2005, and $2,900 in 2008) to help cover the costs of services we were 
providing their patients. On several occasions rec. therapists have 
made personal donations to the Farm to help cover the costs of their 
referrals. Recently, though, we were awarded a one-time-only privately 
funded grant provided by the Florida BrAIve Fund and administrated by 
The Gulf Coast Community Foundation of Venice. BrAIve Fund monies are 
earmarked per the original donor for services supporting OEF/OIF 
servicemembers and their families. This grant of $618,566.80 enabled us 
to expand the types of services we offer, the amount of services we 
provide, and the number of military servicemembers we provide services 
to by 1,200 percent in barely 2 years: from 32 unique servicemembers in 
2008, to 850 in 2010. Unfortunately, our BrAIve grant funding expires 
September 30, 2010. We are currently seeking alternative sources of 
funding, both private and governmental, and are exploring the 
possibility of establishing a contractual fee-for-service relationship 
with the VA and/or the DoD.
    This increase in military referrals we've experienced reflects a 
great and increasing need on the part of military servicemembers and 
their families. Likewise, it also reflects the great and increasing 
degree to which VA hospitals are depending upon civilian organizations 
like ours to assist in healing visible and invisible wounds of war that 
our veterans and their families are so bravely enduring. The current 
conflicts in Iraq and Afghanistan are generating more catastrophically 
injured combat survivors than any other conflict to date thanks to 
great improvements in field medicine. The ramifications are good and 
bad, big and small, focal and widespread. VA health care workers are 
handling rapidly expanding caseloads of seriously injured patients--
both the number and medical complexity of these cases exceed caseloads 
VA medical professionals have managed before. In fact, our friends at 
James Haley Recreation Therapy tell us that each of their therapists 
are serving over 130 beds, many of their occupants with traumatic brain 
injuries (TBI), amputations, spinal cord injuries and burns. And those 
are merely the physical injuries. Many of them also suffer depression, 
post-traumatic stress disorder (PTSD) and have emotional and family 
issues to manage as well. Young families are facing a lifetime of 
caregiving for seriously injured family members as they struggle to 
raise children, work, maintain households and marriages. Not 
surprisingly, divorce and suicide rates are high in this population. 
Recreation therapists are instrumental in assisting injured 
servicemembers and families to successfully navigate the numerous and 
significant challenges they face post-injury. Rec. therapists help 
injured veterans and families discover the new ``normal'': helping 
injured veterans reintegrate into civilian life; reacquainting family 
members with each other after extended separations and functional 
changes; helping families learn to recreate together focusing on 
strengths, abilities and resources; and promoting healthy relationships 
and engaged, active lifestyles. Likewise, civilian veterans' service 
organizations, like Quantum Leap Farm, are instrumental in helping 
recreation therapists do their jobs: helping a large and diverse 
population of injured servicemembers and their families rebuild and 
recover from war-related trauma.
    Recently our attendance at the Conference on Iraq and Afghanistan 
Veterans (CIAV) in Washington, DC, was sponsored by our military 
grantor, The Gulf Coast Community Foundation of Venice. Presenters 
included Brigadier General Loree Sutton, MD, Director of the Defense 
Centers of Excellence for Psychological Health and Traumatic Brain 
Injury (DCoE), and panels of veterans, caregivers, and service 
providers--some of the Nation's most intelligent and well-informed 
experts on veterans' issues. We participated in numerous workshops, 
attended informative lectures, spoke with legislators, met with various 
department heads within the VA, and networked with other service 
providers sharing our experiences working with injured veterans. Most 
relevant among several over-arching conclusions of the CIAV Conference: 
Although there is much great legislation currently being passed to help 
our Nation's wounded warriors recover physically, emotionally, socially 
and financially, it seems very little funding is trickling down to the 
community level where it will do the most good. If we are willing to 
award multi-million dollar contracts to defense and other government 
contractors, why are we not willing to award similar contracts to 
organizations that help fulfill our Nation's promise of caring for 
those willing to lay down their very lives for our freedom?
    As a Nation, we are in uncharted territory. The number of 
profoundly disabled veterans needing long-term care and services is 
rising rapidly and won't peak for years to come. The effects on our 
health care system, our economy and our American culture remain to be 
seen. However, one thing is certain--we, all of us, owe these veterans 
and their families our unfailing support and gratitude for their 
inestimable sacrifices.
    It is my pleasure and an honor to submit this testimony to you 
today. Thank you again for your time and consideration.

                                 Military Statistics--May 2009 Through May 2010
----------------------------------------------------------------------------------------------------------------
                                                                                       Total of
                                            Bay Pines     James A.      James A.       Military
                                           VA Hospital    Haley  VA     Haley  VA     Individuals
                                          Recreational    Hospital      Hospital     who  came for     TOTALS
                                             Therapy    Recreational     MICHAM      service  NOT
                                           Department      Therapy     Department   Referred by  a
                                                         Department                   VA Hospital
----------------------------------------------------------------------------------------------------------------
Number of Individuals Served                        51           297            24             477           849
----------------------------------------------------------------------------------------------------------------
Number of Sessions Provided                        224         1,725           516           2,474         4,939
----------------------------------------------------------------------------------------------------------------
Dollar Amount of Sessions Provided          $21,284.48   $163,909.50    $49,030.32     $235,079.48   $469,303.78
----------------------------------------------------------------------------------------------------------------


                                 <F-dash>
  Prepared Statement of Melinda Wheatley, Senior Recreation Therapist,
Hillsborough County, FL, Parks, Recreation and Conservation Department,
             and Paralympic Sport Tampa Bay, Tampa Bay, FL

               Overview of Paralympic Sport Tampa Bay and
  Hillsborough County Parks, Recreation and Conservation Department's 
                    Therapeutic Recreation Services



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



The mission of Paralympic Sport Tampa Bay is to promote health, 
independence, and personal growth for people with physical disabilities 
through sports.

    Paralympic Sport Tampa Bay (PSTB) is one of over 100 community 
based programs established by the Paralympic Division of the United 
States Olympic Committee.
    As a signature program of the Hillsborough County Parks, 
Recreation, and Conservation Department, PSTB provides year-round 
sports and recreation programs that promote physical activity, healthy 
lifestyles, and recreational and competitive sports opportunities for 
area children and adults with physical disabilities.

    Program Highlights:

    <bullet>  Over 200 athletes participate in at least one PSTB 
program or event each year;
    <bullet>  PSTB offers ongoing programs for athletes at all levels 
from recreational to competitive elite in multiple sports such as 
wheelchair basketball, track and field, adaptive tennis, swimming, 
archery, and wheelchair team handball;
    <bullet>  PSTB offers periodic clinics in additional sports such as 
archery, adaptive golf, handcycling and water skiing;
    <bullet>  PSTB has strong relationships with other community 
agencies such as Shriner's Hospital for Children, James A. Haley VA 
Hospital, and the Tampa Bay Sports Commission.

    For additional information:

    Contact Andy Chasanoff, Sports Coordinator
    Paralympic Sport Tampa Bay, 6105 E. Sligh Ave., Tampa, FL 33617,
      (813) 744-5307, Fax (813) 744-5309, or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4e2a3d3e213c3a3d262d3e3c2a0e2f2122602d212360">[email&#160;protected]</a>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    

All People's Life Center

    The showcase facility and home base for the therapeutics program is 
the All People's Life Center (APLC), which opened in 2007. The 45,000 
sq. ft. center has won awards for its design and accessibility. APLC 
was recognized in 2008 by the National Association of County Parks and 
Recreation Officials (NACPRO) winning the Barrier Free Initiative 
Award. The facility was also recognized by the Hillsborough County 
Alliance for Citizens with Disabilities winning the Karen Jacobs 
Accessibility for All Award. The APLC not only serves as the home for 
the department's therapeutic programs for people with special needs, it 
is also open to all persons with typical abilities. Every detail of the 
building exceeds ADA standards for accessibility, eliminating all 
barriers to participation for people with disabilities. The facility 
features a two-court full gymnasium, which can be divided by means of a 
curtain, two multi-purpose rooms, two classrooms, fully accessible 
playground, a dance room, a fitness center, a food-service grade 
kitchen, a paved walking trail, an outside basketball court and a 
multi-use field. The facility offers dance classes, martial arts, 
basketball leagues for residents at all levels of ability, plus 
community events and tournaments such as townhall meetings, wheelchair 
rugby and team handball.

                                 <F-dash>
Prepared Statement of Sandy Ackley, Programming and Events Coordinator,
          Sailability Greater Tampa Bay, Inc., Clearwater, FL
    Sailability Greater Tampa Bay, Inc., is a 501(c)3 operating out of 
Pinellas County, whose services are provided to the Greater Tampa Bay 
area. We pride ourselves on our mission, which is to provide 
affordable, accessible sailing activities and education to children and 
adults of all ages and abilities, focusing on community integration to 
improve the quality of life for all involved.
    The concept of our program was born in March of 2001. It was at 
that time that a small group of people envisioned and implemented an 
opportunity within their community. The challenged individuals, that we 
take sailing, quickly realized that the only limitations they faced 
were those of the mind, and that whatever one might set their mind to 
do can be accomplished; this I know because my husband is a veteran who 
is disabled and recreational therapy is what kept my family strong.
    Sailability is 9 years old now and has built a fleet of 13 Access 
Dinghy boats, 3 catamarans and a motor boat. A grant, fundraising and 
local supporters made it possible for us to purchase our first 303 
servo assist boat which has adaptive equipment which includes a ``sip 
and puff,'' chin control, electronic joysticks and adaptive seating, 
which a ventilator dependent quadriplegic would be able to sail 
independently. In fact, after training provided by Sailability Greater 
Tampa Bay, Inc., Lynn Moers, a ventilator dependent quadriplegic from 
James A. Haley Hospital, set a record here in Clearwater to be the 
first ventilator dependent quad to sail independently in the United 
States on an Access Dinghy. Lynn and other veterans come to our 
community sails, which are held four times a year, and lead the way 
demonstrating the opportunities our waters could provide to veterans 
while he navigates the Clearwater Intercoastal Waterway. Wheelchair-
bound vets from our community, recreational rehab and spinal cord 
programs, various veteran support groups, as well as the Paralyzed 
Veterans, James A. Haley, Bay Pines Hospital and returning Iraqi 
veterans accompanied by their families, friends and therapists, watch 
in awe from atop ``The Miss Beverly.'' This is when I know that what I 
do gives our vets a sense of worth, confidence, assurance and belief, 
while building on self-esteem reaching their goals and drives as I 
watch their arms in the air screaming out words of joy and triumph, and 
happy tears running down their faces. I know this because Sailability 
is what empowers people and kept my family strong.
    The Miss Beverly is a 24-foot wheelchair accessible pontoon boat 
that resides at MacDill. The Miss Beverly is borrowed to take Bay 
Pines, James A. Haley veterans and community veterans out fishing or 
used as a spectator boat for the more ``I have to challenge Sandy'' 
veteran while others sail the bay. I get them all in a boat sooner or 
later. They learn to trust and believe in themselves again, this I know 
with certainty.
    We serve over 500 people per year on an all volunteer staff. Since 
we are driven to get as many veterans out on the water as possible, we 
also strive to support those who would like to facilitate programs such 
as ours locally, regionally, and nationally. Not only does this enhance 
awareness of all individuals, it facilitates the need to keep our 
waterways and environment, not only eco-friendly and pristine, but 
accessible to all.
    We are proud of the fact that since our inception, we have been 
able to have a positive impact on many individuals. Our program has 
graduated a multitude of sailors; many of which were either mentally or 
physically challenged, as well as able-bodied children, adults, and 
seniors. Some of those physically challenged individuals include, but 
are not limited to, paraplegics, quadriplegics, amputees, stroke 
survivors, and those with neurological impairments such as cerebral 
palsy, multiple sclerosis and head trauma injuries. Moreover, we have 
been able to introduce the experience of sailing and touch the lives of 
more than 500 individuals, along with their family members and 
caregivers. This I know because I get the tears of joy, the ``thank you 
for giving me my life back'' cards, the gratitude from recreation 
therapists, the appreciation from family and friends. These sailboat 
rides are more rewarding to me than I can describe. Men that have the 
wind taken out of their sails, from them I get my strength to make 
others strong.
    Sailability GTB also has the ability to travel to outside counties 
and support other groups. Our presence at these travel events raise the 
awareness in our community for the need to maintain community inclusion 
and accessibility for all, while giving our veterans what they need and 
deserve. We are obligated to do this for people who gave their souls in 
belief that we will stand by them. We feel that our presence and 
support within our community will fuel the acceleration of programs 
like ours, and this I know because my son is a 3rd generation Marine 
who volunteered since he was 10 years old putting veterans out on the 
water. These proud veterans taught my son loyalty, trust, and gave him 
confidence and strength.
    We pride ourselves on the fact that all these accomplishments have 
been made through an EXTREMELY dedicated volunteer staff. And, as we 
move into this next decade, we anticipate growing our program and 
touching many more lives as we live through war.

                                 <F-dash>
     Prepared Statement of David B. Windsor, Principal Instructor,
 Professional Golfers' Association of America, Adaptive Golf Academy, 
                                  Inc.
    Experience has shown that early intervention with active sports 
results in successful rehabilitation. Individuals in the recovery 
process, whether it's brain or spine injury, speech or limb loss, poor 
awareness, impulsive behaviors, judgment or balance issues, are 
frequently detached or disconnected from their communities, and worse, 
their own families. This isolation only tallies up more problems 
resulting from their injuries. It's a fact that a disability injury 
puts you in a lonely place mentally, socially. Introducing and 
involving patients into a ``fail-proof'' activity within a positive 
environment takes their minds off ``therapy'' and allows their recovery 
process to be self-initiated. The fact of getting outside, on the golf 
course, to network with their peers facing similar issues, provides our 
veterans and service men and women the consistent platform essential 
for their level of connection, hence, improved family and community 
relationships.
    The James A. Haley VA Adaptive Golf program was introduced on 
Friday, September 28, 2007 and has continued every Friday since 
(approaching 3 years). The program consists of JAH inpatients brought 
by therapists to Terrace Hill GC, a nearby course, where they are 
greeted by a PGA professional, Ken Juhn, and members of AVAST, Amputee 
VA Support Team (a group of area outpatients and volunteers). The 
Friday JAH Adaptive Golf program has been more than just a weekly 
``golf outing'' but rather a vital part of their rehabilitation process 
and community reintegration practice.
    For the record, this is not the first program of it's kind. This is 
an extension of a weekly program that developed in 1998 in Sarasota, FL 
with the involvement of myself as the PGA professional and therapists 
and clients from the community. As a club professional at the time, I 
first saw the program as just helping folks get better at hitting the 
golf ball. I soon realized there was more to it, much more to why folks 
were coming out week after week with their therapists and caregivers. 
Everyone participating experienced first-hand how the restorative 
properties of the game of golf positively enhanced their lives. Just on 
the practice tee, inherently positive essential life skills are applied 
and evaluated such as range of motion, balance, hand-eye coordination, 
depth perception and an array of fine motor skills. During the ``on-
course'' portion of each weekly session, students learn about USGA 
rules, proper etiquette, team-oriented playing formats, making proper 
club selection and mapping their course strategies. These lessons 
require participants to use life skills such as judgment for 
decisionmaking, courtesy for others, honesty for scorekeeping, building 
a more confident individual through perseverance. These physical and 
cognitive skills are more often taken to new heights where experiences 
can go far beyond words for these veterans and staff.
    While many recreational therapy programs offer themselves as 
rehabilitation or performance enhancements, adaptive golf sets itself 
apart, offering many unique potentials for both clients and therapists. 
First, the golf swing is one of the most complicated movements in all 
sports. It requires stability in some joints and flexibility in others, 
creating multiple avenues for a therapist's assessment of the client. A 
common testimony from therapists observing patients on the course: 
Apparent improvement in clients range of motion in trunk and/or 
shoulder rotations once they were handed a golf club and a ball was 
placed on a tee! Why? A thought re-direction, the mind shifts from, 
say, an injured hip (their primary concern) to another focal point, 
triggering an integration of other able functions/flexors such as feet, 
knees and opposite hip for overall increased rotation.
    Program participants who never thought golf was a viable 
recreational opportunity now have discovered its inherent values, both 
spiritual and physical. Even those suffering from severe Post-Traumatic 
Stress Disorder (PTSD) depart a Friday session with an entirely 
different outlook. ``They come back to the hospital talking golf,'' 
said Jim Switzer, the amputee case manager for James Haley Hospital. 
``Many can't wait to get back out again.''

          ``At the James A. Haley Veterans Hospital in Tampa, FL, our 
        active duty soldiers and veterans who face physical challenges 
        or complicated barriers with their PTSD, depression, and/or 
        traumatic brain injuries, are encouraged to reach functional 
        independence so they can get back to their lives . . . of all 
        recreational activities, we favor the adaptive golf experience 
        the most as it introduces the concept to help our patients 
        maximize their new potentials . . . with adaptive golf, this 
        process of recovery is self initiated.''
                          Kathryn Bryant, CTRS

Real Stories:
    Capt. Mark--survived Blackhawk helicopter crash in N. Italy during 
training exercise in November 2007. One of five survivors of a crew of 
eleven. Grew up playing ice hockey near Cleveland and during his first 
visit to the golf course he stated to me from his wheelchair, ``I can't 
wait to ice skate again someday!'' Comparison of the video clips of his 
swing on his first visit to those 3 months later was remarkable, would 
astound you. After just a little time around Mark, it was apparent that 
helping him hit better drives down the fairways was motivating his 
drive life!
    Gunner Jim--survived Humvee roadside blast. His first time out, he 
didn't even think about swinging a club. ``I was happy to just get out 
of the hospital for a little while,'' he said. Then he was introduced 
to the SoloRider golf car, a golf car designed for wheelchair players 
to become more upright to swing the club better and complete access to 
the golf course. ``You know, we have classes with therapists and 
they're great, but we're inside. For me, being outdoors and having 
people like this to help crack a few balls . . . this is my best day of 
therapy!''
    To sum it up, the JA Haley Adaptive Golf program has become a 
driving force in the rehabilitation process for which veterans, active 
military personnel with disabilities can relearn and develop skills 
which they thought were beyond their capabilities. Physically, adaptive 
golf improves individuals' balance, coordination, endurance and 
functional ability to perform daily activities, decreasing risks of 
falls and injuries and increasing overall quality of life. Mentally, it 
helps train individuals to focus on more positives and develop better 
everyday life and judgmental skills, self-esteem, confidence, 
independence and feeling of dignity, giving new hope to expand their 
horizons as they transition back into civilian life.
    The next opportunity you have on a Friday morning to come visit the 
JA Haley Adaptive Golf program, I encourage you to do so and see for 
yourself why every Friday is Veterans Day at Terrace Hill Golf Club.



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Prepared Statement of Cathy Chiovitti Williams, CTRS Supervisor,
 Recreation Therapy Section, James A. Haley Veterans' Hospital, Tampa, 
                                  FL,
  Veterans Health Administration, U.S. Department of Veterans Affairs
    Good morning, Congresswoman Brown, Congressman Bilirakis, and 
Congressman Miller. Thank you for inviting us here to discuss the James 
A. Haley Veterans' Hospital Recreational Therapy program.
    The James A. Haley Veterans' Hospital provides recreation therapy 
to veterans and servicemembers within Veterans Integrated Service 
Network (VISN) 8. The Physical Medicine and Rehabilitation Service's 
Recreational Therapy Section currently has 21 full-time employees. 
Seventeen (17) of the employees are recreational therapists who possess 
specialized training and a Bachelor of Science or a Master of Science 
degree in therapeutic recreation. Most of our staff is certified by the 
National Council for Therapeutic Recreation. All Tampa recreational 
therapists are certified brain injury specialists.
    Our goal is to maximize each patient's rehabilitation potential 
through active recreation, leisure and sport pursuits, which are 
designed to improve or maintain physical, emotional, social, and 
cognitive functioning for a better quality of life and increased 
independence. Recreation activities enhance physical health, 
psychosocial and cognitive status, and improve functional independence 
in the community. Recreation therapy provides resources and 
opportunities to improve overall health and well-being. It improves 
physical health by increasing mobility, range of motion, strength, 
motor skills coordination, vestibular balance, agility, and athletic 
skills. Recreational therapy also improves psychosocial communication, 
trust, and cooperation skills while enhancing morale, life 
satisfaction, self-esteem, socialization and camaraderie. In addition, 
the program addresses cognitive deficiencies through enhanced 
attention, memory and perception; increased alertness and awareness of 
surroundings; and reduced confusion and disorientation.
    VA clinical staff conducts a thorough assessment to ensure we 
develop a treatment plan that best meets the needs of the individual 
patient. We work with the patient and his or her family to develop this 
plan. Activities and programs are tailored to be appropriate for the 
individual patient to facilitate the best possible outcome. In sum, we 
adopt a ``whole person'' view that considers the individual's activity 
interests and patterns before their injury, illness or disability and 
we focus on returning the patient as much as possible to his or her 
previous functionality, ability and activity levels to promote active 
community participation.
    The therapeutic recreation staff conducts leisure education 
counseling to provide a baseline of information for patients. This 
counseling enables patients to broaden their perspective of what 
activities are available to them. Patients are offered as many 
opportunities as possible to participate in community recreation 
resources and to improve their overall well-being through leisure 
participation. In Tampa, our recreation therapy programs include 
activities such as archery, animal-assisted activities, bowling, 
fishing, horseback riding, air gun and trap shooting, basketball, 
cycling, golf, power soccer, rowing, sled hockey, tennis, water skiing, 
sailing, track and field, arts and crafts, among others.
    The James A. Haley Veterans' Hospital Therapeutic Recreation 
program benefits considerably from its multiple community, governmental 
and university partnerships. We collaborate closely with external 
parties to provide recreational special events for inpatients such as 
trips to Kennedy Space Center shuttle launches, cultural and community 
events, and local sporting events, such as baseball games, NASCAR 
events, and the Super Bowl. Veterans receiving treatment at our 
facility also participate in VA sponsored events like the National 
Veterans Summer Sports Clinic, the National Veterans Winter Sports 
Clinic, the National Veterans Wheelchair Games, the National Veterans 
Golden Age Games, the National Veterans Training, Exposure and 
Experience (TEE) Tournament, and the National Creative Arts Festival. 
We have had patients also participate in other national events not 
sponsored by VA, including Challenge Aspen, Lima Foxtrot, Endeavor 
Games, and the Paralympics Military Sports Camps.
    Our program in Tampa continuously provides patient-centered 
recreation therapy services. This enhances current abilities and helps 
veterans develop new skills through recreation therapy activities for 
daily living, community functioning, and quality of life. Thank you 
again for the opportunity to appear before you today. My colleagues and 
I are prepared to answer any questions you may have.

                                 <F-dash>
              Prepared Statement of Steven G. Scott, D.O.,
          Chief, Physical Medicine and Rehabilitation Service,
             James A. Haley Veterans' Hospital, Tampa, FL,
  Veterans Health Administration, U.S. Department of Veterans Affairs
    Congresswoman Brown, Congressman Bilirakis, and Congressman Miller, 
thank you for the opportunity to discuss the James A. Haley Veterans' 
Hospital Therapeutic Recreation Therapy program and its role in the 
rehabilitation of those who serve our country.
    In my role, I have always emphasized the importance of recreation 
and sport activities in personal development and rehabilitation. My 
colleague, Cathy Williams, has presented an overview of the James A. 
Haley Recreation Therapy program and its benefits as a patient-centered 
service. I would like to focus and discuss the importance of recreation 
therapy to veterans from Operation Enduring Freedom and Operation Iraqi 
Freedom (OEF/OIF).
    We are in a new era of rehabilitation and recreation therapy. Our 
society values sports, recreation and leisure. Sports and recreation 
activities have been an important part of the lives of our newest 
veterans, and their identities have frequently been linked to these 
activities, so injuries that limit their ability to participate may 
have significant impacts on their sense of self. Changes in warfare and 
battlefield medicine have led to new injuries and new challenges in 
rehabilitation. Some of our newest veterans come to the Department of 
Veterans Affairs (VA) with brain injuries, ranging from minimal to 
profound; post-traumatic stress disorder (PTSD) and other mental health 
problems; and multiple injuries that often need prolonged 
rehabilitation.
    In this new era of rehabilitation, recreation therapy success is 
possible through specific inclusion in a multidisciplinary 
rehabilitation team that includes physical, occupational and speech 
therapies. Recreation therapy provides an environment of adventure and 
discovery within which veterans can practice and integrate the skills 
learned from the other therapy team members. For our newest veterans, 
recreation therapy provides new hope and opportunity to discover new 
goals and dreams for the future; it is integral to the rehabilitation 
of our new veterans providing opportunities to relearn skills, develop 
relationships and find meaning and purpose.
    In addition to this new approach to care, technological advances 
have opened up new opportunities for veterans to participate in 
recreation activities and sports. New prosthetics for amputees allow 
veterans the opportunity to participate in competitive sport activities 
or in community events. Wheelchair technology has allowed family 
members to transport severely injured veterans, allowing them to 
participate in a range of public activities. The Internet and video 
games have opened new possibilities for connecting through social 
networking. And recreational activities such as hunting and sailing, 
that were once not possible, are now available.
    The newest veterans have greater interest in extreme sport and 
recreation activities, adventure and competition. A wider variety of 
activities are available now than ever before. Horseback riding, 
adaptive golf, hot air balloon flying, kayaking, waterskiing, sled 
hockey and scuba diving are just a few of the possibilities. We have 
observed seriously injured veterans run a marathon, compete in a 20-
mile bike ride, and catch a 100-pound fish. We also had a seriously 
injured, burned, and blinded servicemember record a song that he 
composed in his room on his tape-recorder. The joy and achievement of 
these experiences is beyond words.
    Recreation therapy gives new freedom to those who fought for our 
freedom: freedom to run when they could not stand, freedom to think 
when they could not remember their name, freedom to be successful when 
they felt lost, and a feeling of hope for a new meaningful life at 
home.
    Thank you again for the opportunity to appear before you today. My 
colleagues and I are prepared to answer any questions you may have.

                                 <F-dash>
          Statement of Verax Technologies, Inc., Pensacola, FL
                      MUSIC THERAPY PILOT PROGRAM
1. INTRODUCTION
    Today's audio technology derives from the early days of the 
industry when two channels were all that sound engineers had to work 
with. However, advances in digital signal processing (including low-
cost, high-capacity computing power, distributed network architectures, 
and component miniaturization), mean that technology no longer has to 
be a limiting factor in sound reproduction, and in the last decade the 
number of audio innovations has exploded. Because Verax got there 
first, the company has been able to develop a rich portfolio of patents 
relating to audio capture, modeling and reproduction techniques, 
including sound source separation, 3D sound modeling and reproduction, 
all of which may be rapidly deployed using off-the-shelf components. By 
combining these technologies with others such as advanced EEG 
diagnostics, we can open up a world of new treatment possibilities for 
music therapists, patients and their families, who will be able to 
optimize the location, spatial direction, volume, tone and other 
characteristics of individual sound stimuli for maximum therapeutic 
effect.
    What makes this unprecedented level of control possible? The answer 
is ``Sound Source Separation.'' This means that individual sounds from 
an unlimited number of sources can each have their own loudspeaker, 
which other systems (e.g., surround sound) cannot replicate. Because 
each sound can be controlled separately without any special technical 
training, patients and/or family members can make the most 
imperceptible, yet highly meaningful adjustments to what is heard. This 
is a fundamentally new approach to sound reproduction, not the typical 
minor modification to existing sound reproduction techniques that add 
marginal improvement at significant cost.
    The following section provides an overview of how Verax solutions 
can add measurable value to standard music therapy interventions for 
PTSD and other disorders.
2. DEFINITION
    Music Therapy is the use of music and/or its musical elements 
(sound, rhythm, melody and harmony) by a qualified music therapist, 
with a client or group, in a process designed to facilitate and promote 
communication, relationships, learning, mobilization, expression, 
organization and other relevant therapeutic objectives in order to meet 
physical, emotional, mental, social and cognitive needs. Music therapy 
aims to develop potentials and/or restore functions of the individual 
so that he or she can achieve better interpersonal and/or interpersonal 
integration and, consequently, a better quality of life, through 
prevention, rehabilitation or treatment. (Source: World Federation of 
Music Therapy, 1996).
3. THERAPEUTIC INTERVENTIONS
    Music therapists use various active and receptive intervention 
techniques according to the needs and preferences of the individuals 
with whom they work. Using Verax's audio technologies in combination 
with medical and other technologies, therapists will be able to 
administer a range of therapeutic interventions, including but not 
limited to the following:
    Listening. Listening to music has many therapeutic applications. 
Music reduces stress (Stratton, 1992) and anxiety levels (Mornhinweg, 
1992). Music has improved mood according to self-report (Kenealy, 
1988), and heart rate and systolic blood pressure have also been shown 
to improve (Pignatello, Camp, Elder, Thomas, & Rasar, 1989). Music 
helps to develop cognitive skills such as attention and memory. For 
example, for those facing surgical procedures, it allows the individual 
an opportunity to exert a sense of control over their unpredictable 
environment. In situations where cognitive perceptions are compromised, 
such as by PTSD, listening can provide a sense of the familiar, and 
increase orientation to reality. Music listening can facilitate 
increased openness to discussion by helping patients feel safe and 
provide motivation for engaging in social activity. Verax's ``object 
oriented'' technology (enabling one or more sounds to have its own 
dedicated speaker) creates unprecedented opportunities to ``break the 
sound barrier''--to go beyond what is ordinarily possible with music. 
This is because of the unique ability to control not only the placement 
of individual sounds in 360 degree space (i.e., around the patient), 
but also their directionality--effects that may be accentuated through 
the use of speakers designed specifically for a given frequency band. 
In addition, music (and all sorts of special effects) can be played 
much louder because amplification is possible without distortion.
    Rhythmic based activities. These can be used to facilitate and 
improve an individual's range of motion, joint mobility/agility/
strength, balance, coordination, gait consistency and relaxation. 
Rhythm and beat are important in ``priming'' the motor areas of the 
brain, in regulating autonomic processes such as breathing and heart 
rate, and maintaining motivation or activity level following the 
removal of a musical stimulus. The use of rhythmic patterns can 
likewise assist those with receptive and expressive processing 
difficulties (i.e., aphasia, tinnitus) to improve their ability to 
tolerate and successfully process sensory information. Verax's object 
oriented technology also creates unprecedented therapeutic 
opportunities using rhythmic based activities. For example, with a 
bedside user interface, patients and/or therapists can change the 
location and distribution of sound sources, ranging from a purely 
binaural (stereo) presentation to a more immersive distribution 
comprising multiple speakers arranged in 360-degree space.
    Singing. Singing is a therapeutic tool that assists in the 
development of articulation, rhythm, and breath control. Singing in a 
group setting can improve social skills and foster a greater awareness 
of others. Singing can encourage reminiscence and discussions of the 
past, while reducing anxiety and fear. For individuals with compromised 
breathing, singing can improve oxygen saturation rates. Music may 
stimulate the language centers in the brain promoting the ability to 
sing. One advantage of Verax's technology is the ability to reproduce 
live events that are virtually indistinguishable from the original, 
allowing the patient to re-experience the event repeatedly on demand.
    Playing instruments. This can improve gross and fine motor 
coordination in individuals with motor impairments, neurological trauma 
and other conditions. Instrumental ensembles can enhance cooperation, 
attention, and provide opportunities for practicing various leadership-
participant roles. Playing instruments may assist those with prior 
musical experience to revisit previously learned skills, thereby 
allowing the individual to experience a renewed sense of pleasure and 
enjoyment. It can also develop increased wellbeing and self-esteem in 
those who are learning to play an instrument for the first time. Again, 
the ability to reproduce live events that are virtually 
indistinguishable from the original will enable patients to learn at a 
faster pace.
    Improvising. Improvising offers a creative, nonverbal means of 
expressing thoughts and feelings. Improvisation is non-judgmental, 
easily approached, and requires no previous musical training. As such, 
it helps the therapist to establish a three-way relationship between 
the patient/family, themselves and the music. Where words fail or 
emotions are too hard to express, music can fill the void. Where trust 
and interaction with others has been compromised due to trauma, 
disorder or other causes, improvisation provides a safe opportunity for 
restoration of meaningful interpersonal contact. Where learning ability 
is limited, the opportunity to try different instruments, musical 
sounds, timbres and mediums may provide an opportunity for mastery of a 
new skill and increase life satisfaction. The flexibility of the Verax 
solution will make it possible to create customized solutions for each 
patient, enhancing the therapeutic effect of improvisation.
    Composing/Songwriting. This is utilized to facilitate the sharing 
of feelings, ideas and experiences. For example, with hospitalized 
veterans, writing songs is a means of expressing and understanding 
fears. It may also provide an opportunity for creating a legacy or a 
shared experience with a comrade. Lyric discussion and songwriting can 
help patients deal with painful memories, trauma, and express feelings 
and thoughts that are normally socially unacceptable, while fostering a 
sense of identification with a particular group. Verax's technology 
provides unprecedented opportunities for musical expression, since the 
system is customizable to patient needs. (Source: adapted from Canadian 
Music Therapy Association, 2008).

4. PERSONALIZED TREATMENT PROTOCOLS

    From the data harvested from multiple patients, evidence-based 
standards may be developed, along with highly calibrated treatment 
protocols to address disorders like PTSD with much greater efficacy. 
For example, by combining Verax technology with EEG and other medical 
imaging technologies, we will be able to analyze brain activity in real 
time, and through advanced diagnostics determine the optimal 
therapeutic intervention for each patient. We may then develop a 
spectrum of optimization templates, each suited for a given patient 
profile.
    The following chart compares the expanded diagnostic and treatment 
possibilities of the Verax approach to music therapy (outer circle 
corresponding to upper diagram) with the limited possibilities of the 
conventional stereophonic approach (inner circle corresponding to lower 
diagram). Verax's approach may include stereophonic protocols, but then 
can do so much more since the number of points of intervention is 
limited only by the imagination of the therapist.

                     ADVANCED MUSIC THERAPY SYSTEM



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               APPENDIX A
                    Music Therapy: The New Frontier

    According to a 2008 study of 1.65 million servicemembers by the 
Rand Corp, 20 percent of Iraq and Afghanistan veterans (over 300,000 
individuals) suffer from depression or post-traumatic stress disorder 
(PTSD). Experts predict that the percentage could grow in coming years, 
because stress disorders often take months or years to appear, and also 
because of the upsurge in guerrilla tactics such as roadside bombings. 
Victims need help dealing with issues (including flashbacks, withdrawal 
symptoms, and heightened arousal) and resetting their pattern to 
`default.' Left untreated, serious conditions such as PTSD can become 
chronic disabling disorders, so effective diagnosis and treatment must 
be given at the earliest opportunity. Music therapy first emerged to 
help victims develop compensatory mechanisms. But new field of 
Neurologic Music Therapy (NMT) has demonstrated that music can achieve 
much more by actually restoring neurological function. Verax offers the 
prospect of raising the bar still further, by enabling music to be 
calibrated and optimized in ways that are not possible with existing 
technology.

Neurologic Music Therapy (NMT)

    With the rise of psychological ailments among Iraq and Afghanistan 
war vets, military and VA hospitals have begun to rethink how they deal 
with this age-old scourge of war. Music therapy in particular has shown 
great promise as a powerful non-invasive therapeutic tool. Furthermore, 
new research findings indicate that music therapy can not only help the 
patient develop compensatory behaviors, but also restore neurological 
function.\1\ The scientific, evidence-based field of Neurologic Music 
Therapy has emerged with the goal of treating patients with various 
neurologic issues (cognitive, speech/language, sensorimotor). NMT is 
based on the principle of leveraging the physiological mechanisms 
inherent in music perception and production.
---------------------------------------------------------------------------
    \1\ Baker F., Roth EA. (2004). Neuroplasticity and functional 
recovery: training models and compensatory strategies in music therapy. 
Nordic Journal of Music Therapy. 13(1): 20-32.
---------------------------------------------------------------------------
    A common task of music therapists is to induce a meditative 
condition so as to influence brain neurophysiology. In order to 
accomplish this, it is necessary to discover the most effective 
rhythmic and tonal parameters for each patient. Individualized music 
has superior healing properties to regular ``relaxation music,'' 
because everybody's EEG (the pattern of electrical impulses produced by 
chemical reactions in brain cells) is as unique as their fingerprint. 
To demonstrate this, one study sponsored by the University of Toronto 
used computers to transform EEG traces into `brain music.' Sixteen EEG 
channels were employed, each channel providing a selection from 120 
musical instruments. Researchers were able to create changes in tempo, 
vary the volume of each channel, transpose the music of each channel to 
different octaves, change musical parameters (e.g., legato or 
staccato), add major and minor chords, and analyze the note patterns of 
each channel. Through a process of optimization they were able to 
entrain and re-balance patients' brains. However, this level of 
individualization is beyond the reach of practicing therapists, who 
have relatively few audio channels to work with, and limited 
opportunities for output control (master volume, left-right balance, 
control of frequencies across all channels).

Verax Value Proposition

    Today's audio technology derives from the early days of the 
industry when two channels were all that sound engineers had to work 
with. However, advances in digital signal processing (including low-
cost, high-capacity computing power, distributed network architectures, 
and component miniaturization), mean that technology no longer has to 
be a limiting factor in sound reproduction. Using Verax's patented 
audio technologies in conjunction with advanced EEG diagnostics, music 
therapists will be able to optimize the location, spatial direction, 
volume, tone and other characteristics of individual sound stimuli for 
maximum therapeutic effect. From the data harvested, evidence-based 
standards may be developed, along with highly calibrated treatment 
protocols to address disorders like PTSD with much greater efficacy.

                               APPENDIX B

               Problem, Hypothesis and Military Relevance

    <bullet>  Psychological health & traumatic brain injury
    <bullet>  Advanced music therapy systems can build upon the proven 
success of traditional music therapy treatments and protocols
    <bullet>  Next-generation music therapy systems can be deployed 
throughout the Military Health System (MHS) as a cost effective, non-
invasive method to assist in the tasks of:
    <bullet>  Chronic pain management
    <bullet>  Diagnosis and treatment of PTSD
    <bullet>  Diagnosis and treatment of deployment-related 
psychological health problems
    <bullet>  Psychological resilience
    <bullet>  Suicide prevention

                           Proposed Solution

    <bullet>  Music therapy has shown great promise as a powerful, non-
invasive therapeutic tool
    <bullet>  New research findings indicate that music therapy can 
help patients develop compensatory behaviors and restore neurological 
function
    <bullet>  Individualized music has superior healing properties to 
regular relaxation music because EEG patterns are as unique as 
fingerprints
    <bullet>  Today's audio technology derives from the early days of 
the industry when two channels were all that sound engineers had to 
work with
    <bullet>  Verax's patented audio technologies, in conjunction with 
advanced brain diagnostics, will enable music therapists to optimize 
sound stimuli for maximum therapeutic effect
    <bullet>  From the data harvested, evidence-based standards may be 
developed along with highly calibrated treatment protocols to address 
an array of psychological disorders with much greater efficacy

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
